 $,5/,1( ,1'8675< 0(75,&6
      7UHQGV RQ 'HPDQG DQG &DSDFLW\
        $YLDWLRQ 6\VWHP 3HUIRUPDQFH
$LUOLQH )LQDQFHV DQG 6HUYLFH WR 6PDOO $LUSRUWV

          1XPEHU &&
       'DWH ,VVXHG $XJXVW  
               VTÃ9rhrÃsÃ
                                                               0HPRUDQGXP
               UhhvÃ

               PssvprÃsÃurÃTrprhÃ
               sÃUhhvÃ


               PssvprÃsÃDrpÃBrrhyÃ




               ,1)250$7,21 $LUOLQH ,QGXVWU\ 0HWULFV                            $XJXVW  
           Ã




6XEMHFW                                                               'DWH




  )URP        .HQQHWK 0 0HDG                                       5HSO\ WR   -$
                                                                     $WWQ RI
               ,QVSHFWRU *HQHUDO

    7R        7KH 6HFUHWDU\
               )HGHUDO $YLDWLRQ $GPLQLVWUDWRU



               $WWDFKHG LV WKH VL[WK LQ D VHULHV RI SHULRGLF XSGDWHV WR RXU DLUOLQH LQGXVWU\ PHWULFV
               UHSRUW 7KH PHWULFV ZHUH GHYHORSHG DV D PHFKDQLVP IRU PRQLWRULQJ DLUOLQH LQGXVWU\
               WUHQGV WKDW ZKHQ FRPELQHG SRUWUD\ WKH RYHUDOO FRQGLWLRQ RI WKH DLUOLQH LQGXVWU\ DQG
               DLU WUDYHO %DVHG RQ GDWD REWDLQHG IURP WKH 86 'HSDUWPHQW RI 7UDQVSRUWDWLRQ
               '27 WKH )HGHUDO $YLDWLRQ $GPLQLVWUDWLRQ )$$ WKH %XUHDX RI 7UDQVSRUWDWLRQ
               6WDWLVWLFV %76 DQG WKH $LU 7UDQVSRUW $VVRFLDWLRQ $7$ WKH 2IILFH RI ,QVSHFWRU
               *HQHUDO 2,* KDV GHYHORSHG  PHWULFV UHODWLQJ WR GRPHVWLF GHPDQG DQG FDSDFLW\
               DYLDWLRQ V\VWHP SHUIRUPDQFH DLUOLQH ILQDQFHV DQG DLU VHUYLFH DW VPDOO DLUSRUWV 7KH
               SRLQW RI UHIHUHQFH RU EDVH \HDU IRU PRVW RI WKH PHWULFV LV  ZKHQ WUDIILF DQG
               GHOD\V ZHUH DW WKHLU SHDN 7KLV WUDQVPLWWDO PHPRUDQGXP LV IROORZHG E\ ([KLELW $
               6XPPDU\ RI $LUOLQH ,QGXVWU\ 0HWULFV ZKLFK FRQWDLQV GHWDLOHG WH[WXDO DQG JUDSKLF
               SUHVHQWDWLRQV RI LQGXVWU\ PHDVXUHV ([KLELW % 6FRSH DQG 0HWKRGRORJ\ ZKLFK
               H[SODLQV VRXUFHV DQDO\VHV DQG WHUPV HPSOR\HG DQG ([KLELW & ZKLFK OLVWV 2,*
               FRQWULEXWRUV WR WKH UHSRUW

               2YHU WKH SDVW  \HDUV WKH DLUOLQH LQGXVWU\ KDV IDFHG D QXPEHU RI PDMRU FKDOOHQJHV
               LQFOXGLQJ D ZHDNHQHG HFRQRP\ ORVV RI SUHPLXPIDUH EXVLQHVV WUDIILF WKH WHUURULVW
               DWWDFNV RI 6HSWHPEHU   WKH 6HYHUH $FXWH 5HVSLUDWRU\ 6\QGURPH 6$56
               HSLGHPLF WKH ZDU LQ ,UDT DQG VRDULQJ IXHO SULFHV )LJXUH , LOOXVWUDWHV WKH
               FRUUHVSRQGLQJ LPSDFW HDFK RI WKH PDMRU UHFHQW HYHQWV KDV KDG RQ VFKHGXOHG GRPHVWLF
               IOLJKWV EHWZHHQ -DQXDU\  DQG 0D\ 



           &&
                                                                                                                                                    

         )LJXUH , 3HUFHQW &KDQJH LQ 6FKHGXOHG 'RPHVWLF )OLJKWV -DQXDU\ 
                   7KURXJK 0D\  %DVH <HDU 
                 'È                                            3 Qtrs o f
                                                                                   9/11                             M ay ’04 Flight Schedules do wn 6 %
                                                                                Terro rist       Iraq War and       fro m 1999, do wn 14 % fro m 2000
                 #È
                                                             Negative GDP
                                                                                A ttacks            SA RS


                 È
             #È
3HUFHQWDJH




             'È
                                           B usiness Travel
                                           B egins to Decline


              !È
              %È             Flight Schedules Reach
                               Lo west P o int at -15%
                                                                                                                       Flight Schedules Do wn
                                                                                                                       9% to 11% Summer ’03

             !È
                                                                                                                                
                                                                                                                                
                               
                                  O                          
                                                                  O                         
                                                                                                 O                        
                                                                                                                               O                      
                      Q   U   \        S    Y    Q       U    \       S     Y     Q     U    \        S    Y    Q    U    \         S    Y      Q   U     \
                          D       X                      D        X                     D        X                   D         X                    D
                      D       D   -    H    R    D            D   -   H     R     D          D   -    H    R    D         D    -    H    R      D         D
                      -   0   0        6    1    -       0    0       6     1     -     0    0        6    1    -    0    0         6    1      -   0     0

       T pr)ÃÃA66Ã9h h




             'HVFULEHG EHORZ DUH KLJKOLJKWV RI FRQGLWLRQV WKDW KDYH HYROYHG VLQFH RXU ODVW
             UHSRUW
              1HWZRUN FDUULHUV¶ ILQDQFLDO WURXEOHV SHUVLVW GHVSLWH HIIRUWV WR
               UHGXFH FRVWV DQG UHIOHFW D ZHDNHQHG HQYLURQPHQW LQ UHYHQXHV DQG
               DLUIDUHV 1HWZRUN FDUULHUV KDYH PDGH VRPH SURJUHVV LQ UHGXFLQJ ODERU DQG
               RWKHU FRVWV EXW WKHVH JDLQV KDYH EHHQ SDUWLDOO\ RIIVHW E\ UDSLGO\ ULVLQJ IXHO
               FRVWV $OO QHWZRUN FDUULHUV SRVWHG QHW ORVVHV LQ WKH ILUVW TXDUWHU RI 
               $OWKRXJK SDVVHQJHU WUDIILF LV QHDUO\ EDFN WR  OHYHOV DYHUDJH IDUHV SHU
               SDVVHQJHUPLOH DUH GRZQ PRUH WKDQ  SHUFHQW IURP  SDUWO\ GXH WR WKH
               GURS LQ SUHPLXPIDUH EXVLQHVV WUDYHO DQG LQFUHDVLQJ FRPSHWLWLRQ IURP ORZFRVW
               FDUULHUV 7KH DYHUDJH IDUH IRU D PLOH WULS LQ 0D\  ZDV  LQ
               0D\  WKH DYHUDJH IDUH ZDV  /RZFRVW FDUULHUV KDYH IDUHG EHWWHU
               ILQDQFLDOO\ DV WKHLU URXWHV ± DQG PDUNHW VKDUH ± FRQWLQXH WR H[SDQG 7ZR
               ORZFRVW FDUULHUV 6RXWKZHVW DQG -HW%OXH KDYH SRVWHG SURILWV LQ HYHU\ TXDUWHU
               VLQFH WKH HFRQRPLF GRZQWXUQ LQ HDUO\ 
              $OWKRXJK GHOD\V LQ -XQH  ZHUH  SHUFHQW EHORZ WKHLU SHDN LQ
                WKH\ ZHUH  SHUFHQW JUHDWHU WKDQ -XQH  %RWK IOLJKW WUDIILF
               DQG SDVVHQJHU WUDIILF DUH UHERXQGLQJ )OLJKW RSHUDWLRQV LQ 0D\  ZHUH
               ZLWKLQ  SHUFHQWDJH SRLQW RI RSHUDWLRQV LQ 0D\  DQG DOWKRXJK SDVVHQJHU
               HQSODQHPHQWV LQ 0D\  ZHUH VWLOO GRZQ  SHUFHQW IURP 0D\  WKH\
               ZHUH  SHUFHQW KLJKHU WKDQ 0D\  7UDIILF KDV IXUWKHU LQFUHDVHG WKLV
               VXPPHU DQG GHOD\V DUH JURZLQJ DV ZHOO ,Q -XQH  GHOD\HG IOLJKWV ZHUH

             
                 2,* 5HSRUW 1XPEHU && ³$LUOLQH ,QGXVWU\ 0HWULFV 7UHQGV RQ 'HPDQG DQG &DSDFLW\
                 $YLDWLRQ 6\VWHP 3HUIRUPDQFH $LUOLQH )LQDQFHV DQG 6HUYLFH WR 6PDOO $LUSRUWV´ -DQXDU\  


             &&
                                                                                   

   VWLOO  SHUFHQW EHORZ WKH QXPEHU RI GHOD\HG IOLJKWV LQ -XQH  EXW ZHUH XS
    SHUFHQW IURP -XQH 
   'HOD\V ZHUH SDUWLFXODUO\ GLVUXSWLYH DW VHYHUDO NH\ DLUSRUWV )RU H[DPSOH DV
   7DEOH , LOOXVWUDWHV DW &KLFDJR2¶+DUH WKH QXPEHU RI GHOD\V LQ WKH ILUVW
    PRQWKV RI  ZDV  SHUFHQW JUHDWHU WKDQ LQ WKH VDPH SHULRG LQ  DQG
    GHOD\V DOVR DYHUDJHG  PLQXWHV ORQJHU  PLQXWHV YV  PLQXWHV ,Q
   -XQH   SHUFHQW RI DOO IOLJKWV LQWR 2
+DUH ZHUH GHOD\HG ,Q -XO\ 
   WKH JDWH DUULYDO GHOD\ UDWH LPSURYHG VOLJKWO\ WR  SHUFHQW DFFRUGLQJ WR
   SUHOLPLQDU\ GDWD

   7DEOH , 'HOD\V DQG &DQFHOODWLRQV DW &KLFDJR2
+DUH
                                   $UULYDO     $YHUDJH 0LQXWHV
                                   'HOD\V          RI 'HOD\      &DQFHOODWLRQV
   -DQ0D\ 
                                               
   -DQ0D\ 
                                               
   -DQ0D\ 
                                               
   3HUFHQW &KDQJH 
 YV 
                                     
   3HUFHQW &KDQJH 
 YV 
                                       

   7ZLFH LQ WKH SDVW \HDU '27 LQWHUYHQHG WR HQFRXUDJH WKH DLUOLQHV WR YROXQWDULO\
   UHGXFH WKHLU VFKHGXOHV DW 2¶+DUH EXW GHOD\V KDYH FRQWLQXHG WR JURZ
   &XUUHQWO\ WKH 'HSDUWPHQW LV DJDLQ DWWHPSWLQJ WR QHJRWLDWH YROXQWDU\ VFKHGXOH
   UHGXFWLRQV ZLWK WKH KRSH WKDW GHOD\V FDQ EH PLWLJDWHG WKLV IDOO (YHQ LI WKH
   DLUOLQHV DQG WKH $GPLQLVWUDWLRQ DUH DEOH WR HIIHFWLYHO\ UHGXFH 2¶+DUH GHOD\V
   WKURXJK YROXQWDU\ RU DGPLQLVWUDWLYH PHDVXUHV WKH WLPLQJ LV ULJKW IRU WKH
   FROOHFWLYH VWDNHKROGHUV WR H[SORUH PDUNHWEDVHG VROXWLRQV
   7KH )$$ KDV FRPSOHWHG DQ XSGDWH RI LWV FDSDFLW\ EHQFKPDUNV WKDW ZHUH ILUVW
   GHYHORSHG LQ WKH DIWHUPDWK RI WKH VXPPHU RI  7KHVH EHQFKPDUNV LGHQWLI\
   WKH QXPEHU RI IOLJKWV D VSHFLILF DLUSRUW FDQ VXSSRUW ZLWKLQ WKH FRQVWUDLQWV RI WKH
   DLUSRUW¶V UXQZD\V DQG WKH DLU WUDIILF FRQWURO V\VWHP XQGHU YDU\LQJ ZHDWKHU
   FRQGLWLRQV 7KH )$$ KDV VWDWHG LWV LQWHQW WR SXEOLFO\ UHOHDVH WKHVH EHQFKPDUNV
   ZLWKLQ WKH QH[W IHZ ZHHNV DIWHU LW FRPSOHWHV D FRPSDULVRQ RI WKRVH EHQFKPDUNV
   WR DLUOLQH VFKHGXOHV IRU D VXEVHW RI DLUSRUWV H[SHULHQFLQJ VLJQLILFDQW GHOD\V
 /RZFRVW FDUULHU JURZWK LV GULYLQJ SDVVHQJHU WUDIILF UHERXQG $LU
  VHUYLFH DV PHDVXUHG E\ WKH QXPEHU RI VFKHGXOHG IOLJKWV DQG VHDWV LV EHJLQQLQJ
  WR UHERXQG EXW WKHUH LV D VLJQLILFDQW VKLIW IURP  LQ ZKR LV SURYLGLQJ WKLV
  DLU VHUYLFH %HWZHHQ 0D\  DQG 0D\  ORZFRVW FDUULHUV LQFUHDVHG
  WKHLU VFKHGXOHG VHDWV E\  SHUFHQW DW DOO DLUSRUWV ZKLOH VHDWV VFKHGXOHG E\ DOO
  RWKHU FDUULHUV SUHGRPLQDQWO\ QHWZRUN FDUULHUV DQG WKHLU DIILOLDWHV GHFOLQHG E\
   SHUFHQW $W ODUJH KXEV DORQH VHDWV VFKHGXOHG LQ 0D\  E\ ORZFRVW
  FDUULHUV LQFUHDVHG  SHUFHQW ZKLOH RWKHU FDUULHUV GHFUHDVHG VFKHGXOHG VHDWV E\
   SHUFHQW



&&
      The following eight figures are key indicators of trends in the airline industry .
      Additional indicators and observations are included in Exhibit A.

Figure II: Domestic Air Fares* Average Fare                               Figure III: Jet Fuel Cost Per Gallon
for 1,000-Mile Trip, Excluding Taxes (ATA Data)                           (ATA Data-Domestic Fuel Costs)
                                                                                                                              M ay04
                                                                            $120 1                                             $108
                                                                               $100

                                                                          w $0.80
                                                                          A
                                                                          o
                                                                          O
                                                                            $ 0.60

                                                                            $0.40                           $0 .75

                                                                              $020


                                                                                                        a
                                                                              $0.00
                                                                                      0   0 0 0 9     o 0            0    0   0    o a    o
                                                                                          d 7) 4 -, Q - O                 Q        O   Q


Figure IV: Accumulated Net Losses                                         Figure V: Number of Flights with Arrival
and Gains 1Q o1 cumulatively through 1Q 04                                De lays June 2000 through June 2004 (FAA Data)
(DOT Data)                                                                      2'3,000

                                                                                175,000
    -$3,600                                                               w
                                                                          m
    -$6,000                                                                     '40,000
 ., -$9,000
                                                                          d
 `o                                                                       w     105,000
    -$12,000
 E                                                                        d
"-$15,000                                                                 O
                                                                                70,000
    -$18,000
  -$21,000                                                                      35,000
 -$24,000
                               YE'01             YE'02          YE'03
                                  _
       in Ne two rk Ca rriers                l7 Low Cost Carriers                          Jun-00     Jun-01     Jun-02   Jun-03       Jun-04



 Figure VI : Changes in Scheduled Flights                                  Figure VII : Domestic Market Share by
 by Aircraft Type May'04vs . May'00 (FAA Data)                             Carrier Type Available Seats-May 2000 through
                                                                           May 2004 (FAA Data)
    200% 1
                                                                             75%
    150%
               I
   100%




    -50%
                    -49%
    -100%
                   Turboprop    Large Jets       Piston   Regional Jets       I" NetworkCarriers    01-ow-Cost Carriers   DAIIOther Carriers




       CC-2004-085
Figure VIII: Change in Number of Flights               Figure IX: Non-Hub vs. Larger Airports,
by Length of Flight (Scheduled)                        Change from 1998 in Scheduled Available Seats (FAA Data)
5/04 vs . 5/00 (FAA Data)                                 20%

    20%



      %               __


o   -10%

    -20%

    -30%   -2]%

    -40%
           0 to 249   250 to 499 500 to 999   1,000+
                              M files                           [     Non-Hub Airports   - Larger Airports



       If you have any questions or if I can be of further assistance, please feel free to
       contact me at (202) 366-1959, or Mark R. Dayton, Assistant Inspector General for
       Competition and Economic Analysis, at (202) 366-9970 .

       Attachments (3)




       CC-2004-085
                                                                                                                     


                        7$%/( 2) &217(176

  $,5 6(59,&( '(0$1' $1' &$3$&,7<

     )LJXUH  'RPHVWLF 3DVVHQJHU (QSODQHPHQWV  

     )LJXUH  'RPHVWLF 3DVVHQJHU &DSDFLW\ YHUVXV 'HPDQG  

     )LJXUH  $FWXDO )OLJKW 2SHUDWLRQV 

     )LJXUH  1LQH 0DMRU $LUOLQHV 5HSRUWHG $UULYDOV  

     )LJXUH  'RPHVWLF 6FKHGXOHG &DSDFLW\  

     )LJXUH  5HJLRQDO 'LIIHUHQFHV DW $OO $LUSRUWV 

     )LJXUH  &KDQJH LQ &DSDFLW\ DW /DUJH $LUSRUWV  

     )LJXUH  /HQJWK RI )OLJKW  

     )LJXUH  6KRUW +DXO )OLJKWV E\ 7\SH RI $LUOLQH 

     )LJXUH  $LUOLQH 'RPHVWLF 0DUNHW 6KDUH  

     )LJXUH  0DUNHW 6KDUH RI /RZ&RVW &DUULHU 6HUYLFH  

     )LJXUH  6KDUH RI /RZ&RVW &DUULHU 6HUYLFH *URZWK  

     )LJXUH  7\SH RI $LUFUDIW  

     )LJXUH  5HJLRQDO -HWV DW  /DUJH +XE $LUSRUWV  

     )LJXUH  0DUNHW 6KDUH E\ $LUFUDIW 7\SH 

  $9,$7,21 6<67(0 3(5)250$1&(

     )LJXUH  1XPEHU RI )OLJKWV :LWK 'HOD\HG $UULYDOV  

     )LJXUH  &DQFHOODWLRQV 

     )LJXUH  3HUFHQW RI )OLJKWV $UULYLQJ /DWH  

     )LJXUH  /HQJWK RI $UULYDO 'HOD\V  

     )LJXUH  :RUVW DQG %HVW &KDQJHV LQ $UULYDO 'HOD\V E\ $LUSRUW  




&&
                                                                                                                      

  $,5/,1( ),1$1&(6

     )LJXUH  5HYHQXHV YHUVXV ([SHQVHV  

     )LJXUH  6HOHFWHG 1HWZRUN DQG /RZ&RVW $LUOLQHV 2SHUDWLQJ
                3URILW RU /RVV 

     )LJXUH  $FFXPXODWHG 1HW /RVVHV DQG *DLQV  

     )LJXUH  &RVW 3HU $YDLODEOH 6HDW0LOH &$60  

     )LJXUH  'RPHVWLF $LU )DUHV IRU (LJKW 0DMRU $LUOLQHV  

     )LJXUH  'RPHVWLF <LHOG IRU (LJKW 0DMRU $LUOLQHV  

     )LJXUH  %XVLQHVV DQG /HLVXUH 7UDYHO DW WKH )LYH %XVLHVW
                86$LUSRUWV 

     )LJXUH  3DVVHQJHU /RDG )DFWRUV  

     )LJXUH  ,QGLYLGXDO $LUOLQH /RDG )DFWRUV 

     )LJXUH  &RVW 3HU *DOORQ 'RPHVWLF -HW )XHO 

     )LJXUH  'HEW WR ,QYHVWPHQW 5DWLR 

     )LJXUH  'HEW WR ,QYHVWPHQW 5DWLR E\ $LUOLQH 

     )LJXUH  $LUSRUW DQG $LUZD\ 7UXVW )XQG  

  $,5 6(59,&( $7 60$// $,532576

     )LJXUH  1RQ+XE YHUVXV /DUJHU $LUSRUWV  

     )LJXUH  5HJLRQDO 'LIIHUHQFHV DW 1RQ+XEV 

     )LJXUH  $FFHVV WR /DUJH $LUSRUWV  

     )LJXUH  7\SH RI $LUFUDIW DW 1RQ+XE $LUSRUWV 

     )LJXUH  $LUOLQH 0DUNHW 6KDUH DW 1RQ+XEV 

     )LJXUH  (VVHQWLDO $LU 6HUYLFH 




&&
                                                                                                                   




     (;+,%,7 $ 6800$5< 2) $,5/,1( ,1'8675<
     0(75,&6

,       $LU 6HUYLFH 'HPDQG DQG &DSDFLW\
              $,5 75$9(/ '(0$1' 7KH QXPEHU RI DLU WUDYHOHUV LQFUHDVHG QRWDEO\ LQ UHFHQW PRQWKV
               DV GHPDQG FRQWLQXHV WR UHFRYHU IURP WKH VKDUS GHFOLQHV IROORZLQJ WKH WHUURULVW DWWDFNV
               LQ   SHUFHQW GHFOLQH DQG WKH EHJLQQLQJ RI WKH FRQIOLFW LQ ,UDT 'RPHVWLF
               UHYHQXH SDVVHQJHU HQSODQHPHQWV IRU 0D\  ZHUH GRZQ  SHUFHQW IURP 0D\ 
               +RZHYHU HQSODQHPHQWV LQ WKH ILUVW  PRQWKV RI  FRPELQHG ZHUH XS  SHUFHQW
               FRPSDUHG WR WKH VDPH PRQWKV LQ  >)LJXUH @

              3$66(1*(5 '(0$1' 9(5686 &$3$&,7< 'RPHVWLF SDVVHQJHU GHPDQG DV PHDVXUHG
               E\ UHYHQXH SDVVHQJHU PLOHV 530V DQG FDSDFLW\ DV PHDVXUHG E\ DYDLODEOH VHDW PLOHV
               $60V LQFUHDVHG WKURXJKRXW PXFK RI  DQG WKH HDUO\ SDUW RI  ,Q UHFHQW
               PRQWKV SDVVHQJHU GHPDQG KDV JURZQ PRUH TXLFNO\ WKDQ FDSDFLW\ 7KH VORZHU JURZWK
               LQ FDSDFLW\ PD\ UHIOHFW DLUOLQHV¶ FDXWLRQ LQ DGGLQJ FDSDFLW\ LQ DQ HQYLURQPHQW RI
               LQFUHDVHG MHW IXHO SULFHV FRQVLGHUDEOH DLU IDUH FRPSHWLWLRQ DQG ZHDN \LHOGV $V RI
               0D\  SDVVHQJHU GHPDQG 530V ZDV  SHUFHQW EHORZ 0D\  OHYHOV EXW DFWXDO
               FDSDFLW\ $60V ZDV VWLOO GRZQ  SHUFHQW >)LJXUH @

              )/,*+7 23(5$7,216 )$$¶V $LU 5RXWH 7UDIILF &RQWURO &HQWHUV UHSRUWHG KDQGOLQJ
                SHUFHQW IHZHU IOLJKW RSHUDWLRQV LQ 0D\  WKDQ LQ 0D\  7KH UHFRYHU\ LQ
               IOLJKW RSHUDWLRQV LV HYLGHQW LQ PDQ\ UHFHQW PRQWKV 2SHUDWLRQV LQ 'HFHPEHU -DQXDU\
               )HEUXDU\ 0DUFK DQG $SULO QHDUO\ HTXDOHG RU H[FHHGHG  OHYHOV >)LJXUH @

              )/,*+7 $55,9$/6 :KLOH WUDIILF LV UHERXQGLQJ DW DQ LQGXVWU\ZLGH OHYHO WKH UHFRYHU\
               KDV QRW EHHQ XQLIRUP DPRQJ WKH QLQH ODUJHVW DLUOLQHV DV VKRZQ E\ IOLJKW DUULYDOV
               %HWZHHQ 0D\  DQG 0D\  RQO\ WZR DLUOLQHV UHSRUWHG LQFUHDVHV LQ WKH QXPEHU
               RI DUULYDOV DW ODUJH KXE DLUSRUWV $ODVND $LUOLQHV UHSRUWHG DQ LQFUHDVH RI  SHUFHQW DQG
               6RXWKZHVW $LUOLQHV UHSRUWHG DQ LQFUHDVH RI  SHUFHQW ,Q FRPSDULVRQ WKH UHPDLQLQJ
               VHYHQ DLUOLQHV UHSRUWHG GHFOLQHV UDQJLQJ IURP  SHUFHQW IRU $PHULFD :HVW WR  SHUFHQW
               IRU 86 $LUZD\V >)LJXUH @

              $,5/,1( 6&+('8/(6²:,17(5635,1*  )RU WKH ILUVW  PRQWKV RI 
               GRPHVWLF DLUOLQH VFKHGXOHG IOLJKWV DQG DYDLODEOH VHDWV ZHUH GRZQ  SHUFHQW DQG
                SHUFHQW UHVSHFWLYHO\ FRPSDUHG WR WKH VDPH SHULRG RI  &RPSDUHG WR WKH VDPH
               PRQWKV LQ  ERWK WKH QXPEHU RI VFKHGXOHG IOLJKWV DQG DYDLODEOH VHDWV LQ WKH ILUVW

     
             'XH WR WKH VL]DEOH LPSDFW WKDW WKH WHUURULVW DWWDFNV KDG RQ GRPHVWLF IOLJKW VHUYLFH GXULQJ WKH ODWWHU SDUW RI
              ZH XVHG  DV WKH EDVH \HDU LQ PDQ\ RI RXU PHWULFV
             )OLJKW RSHUDWLRQV LQFOXGH ERWK VFKHGXOHG FRPPHUFLDO DQG QRQFRPPHUFLDO HJ JHQHUDO DYLDWLRQ DQG
                                                                          Ã

     

             PLOLWDU\ DLU WUDIILF


     (;+,%,7 $ 6XPPDU\ RI $LUOLQH ,QGXVWU\ 0HWULFV
                                                                                                            

           PRQWKV RI  ZHUH XS DERXW  SHUFHQW 7KH IDFW WKDW DYDLODEOH VHDW JURZWK ODJV
          IOLJKW JURZWK LV DQ LQGLFDWLRQ RI DLUOLQHV VXEVWLWXWLQJ VRPHZKDW VPDOOHUVL]H DLUFUDIW LQ
          UHVSRQVH WR VRIWHU GHPDQG >)LJXUH @

         5(*,21$/ ',))(5(1&(6 :KHQ FRPSDULQJ DOO DLUSRUWV RQ D SHUFHQWDJH EDVLV DLU
          VHUYLFH GHFOLQHG PRUH LQ WKH QRUWKHDVW DQG PLGZHVW UHJLRQV WKDQ LQ RWKHU UHJLRQV RI WKH
          FRXQWU\ )RU H[DPSOH EHWZHHQ 0D\  DQG 0D\  DYDLODEOH SDVVHQJHU VHDWV LQ
          WKH QRUWKHDVW DQG PLGZHVW UHJLRQV GHFUHDVHG  SHUFHQW YHUVXV D SHUFHQW GHFUHDVH LQ
          WKH ZHVW DQG D SHUFHQW GHFUHDVH LQ WKH VRXWK 2Q DQ DEVROXWH EDVLV WKH JUHDWHVW VHDW
          ORVV ZDV LQ WKH PLGZHVW UHJLRQ ZKHUH DYDLODEOH VHDWV GHFOLQHG IURP  PLOOLRQ LQ
          0D\  WR  PLOOLRQ LQ 0D\  7KH VPDOOHVW ORVV ZDV LQ WKH QRUWKHDVW UHJLRQ
          ZKHUH DYDLODEOH VFKHGXOHG VHDWV GHFOLQHG IURP  PLOOLRQ LQ 0D\  WR  PLOOLRQ
          LQ 0D\  >)LJXUH @

         $,53257 &$3$&,7< 7KH UHFRYHU\ LQ RIIHUHG FDSDFLW\ DPRQJ WKH QDWLRQ¶V ODUJH KXE
          DLUSRUWV FRQWLQXHV WR YDU\ VLJQLILFDQWO\ EHWZHHQ DLUSRUWV )RU H[DPSOH RQO\ VL[ RI WKH
          QDWLRQ¶V ODUJHVW DLUSRUWV VDZ DQ LQFUHDVH LQ VFKHGXOHG SDVVHQJHU VHDWV LQ WKH SHULRG IURP
          0D\  DV FRPSDUHG WR 0D\  )RUW /DXGHUGDOH  SHUFHQW .HQQHG\
           SHUFHQW DQG /DV 9HJDV  SHUFHQW 6FKHGXOHG SDVVHQJHU VHDWV DOVR JUHZ
          PRGHVWO\ DW %DOWLPRUH $WODQWD DQG 2UODQGR ([FHSW IRU )W /DXGHUGDOH YLUWXDOO\ DOO RI
          WKH JURZWK DW WKHVH DLUSRUWV UHIOHFWV QHZ RU H[SDQGHG ORZFRVW FDUULHU VHUYLFH $OO
          RWKHU ODUJH DLUSRUWV ORVW VHDWV GXULQJ WKLV SHULRG PRVW QRWDEO\ 6W /RXLV  SHUFHQW
          3LWWVEXUJK  SHUFHQW 6DQ )UDQFLVFR  SHUFHQW +RQROXOX  SHUFHQW 'XOOHV
           SHUFHQW /RV $QJHOHV  SHUFHQW %RVWRQ  SHUFHQW 1HZDUN  SHUFHQW
          0LDPL  SHUFHQW DQG 5HDJDQ 1DWLRQDO  SHUFHQW >)LJXUH @

         /266 2) 6+257+$8/ $,5 6(59,&( ,Q 0D\  WKHUH ZHUH  SHUFHQW IHZHU
          VFKHGXOHG IOLJKWV ZLWK VWDJH OHQJWKV XQGHU  PLOHV WKDQ LQ 0D\  %\
          FRPSDULVRQ IOLJKWV RI  PLOHV RU PRUH LQFUHDVHG  SHUFHQW 7KHVH WUHQGV DUH OLNHO\
          EHLQJ GULYHQ E\ WKUHH IDFWRUV  QHWZRUN FDUULHUV HOLPLQDWLQJ VKRUWKDXO PDUNHWV
          ZKLFK FRVW PRUH SHU SDVVHQJHU WR VHUYH  GLYHUVLRQ RI DLU SDVVHQJHUV WR DXWRPRELOHV
          LQ PDUNHWV ZKHUH VHFXULW\ ZDLWV DQG RWKHU KDVVOHV QR ORQJHU PDNH DLU WUDYHO DV WLPH
          HIILFLHQW DQG  ORZFRVW FDUULHUV HQWHULQJ DQG LQFUHDVLQJ VHUYLFH LQ PDUNHWV RI JUHDWHU
          VWDJH OHQJWK ZKLFK DUH PRVW HFRQRPLFDO IRU WKHLU DLUFUDIW IOHHWV 'XULQJ WKLV \HDU
          SHULRG WKH QHWZRUN DLUOLQHV ZHUH PRUH OLNHO\ WR FXW WKHLU VKRUWKDXO IOLJKWV ZKLFK
          GHFOLQHG  SHUFHQW WKDQ HLWKHU WKH ORZFRVW  SHUFHQW GHFUHDVH RU RWKHU VPDOOHU
          DLUOLQHV  SHUFHQW GHFUHDVH >)LJXUHV  DQG @



        1HWZRUN DLUOLQHV LQFOXGH $ODVND $LUOLQHV $PHULFDQ $LUOLQHV &RQWLQHQWDO $LUOLQHV 'HOWD $LU /LQHV
        1RUWKZHVW $LUOLQHV 8QLWHG $LUOLQHV DQG 86 $LUZD\V
        /RZFRVW DLUOLQHV LQFOXGH $LU7UDQ $LUZD\V $PHULFDQ 7UDQV $LU $PHULFD :HVW $LUOLQHV )URQWLHU $LUOLQHV
                                                             Ã



        -HW%OXH $LUZD\V 1DWLRQDO $LUOLQHV 3DQ $PHULFDQ $LUZD\V 6RXWKZHVW $LUOLQHV 6SLULW $LUOLQHV 6XQ
        &RXQWU\ DQG 9DQJXDUG $LUOLQHV +RZHYHU 9DQJXDUG $LUOLQHV DQG 1DWLRQDO $LUOLQHV FHDVHG RSHUDWLRQV LQ
        -XO\ DQG 1RYHPEHU  UHVSHFWLYHO\

        2WKHU DLUOLQHV LQFOXGH VPDOOHU UHJLRQDO FRPPXWHU DQG QDWLRQDO DLUOLQHV PDQ\ RI ZKLFK DUH DIILOLDWHG ZLWK
        WKH PDMRU QHWZRUN FDUULHUV
                                                                                                          

           /2:&267 $1' 27+(5 $,5/,1(6 *$,1 0$5.(7 6+$5( 0DQ\ ORZFRVW DQG ³RWKHU´
            DLUOLQHV²LQFOXGLQJ UHJLRQDO DQG FRPPXWHU RSHUDWRUV IO\LQJ RQ EHKDOI RI WKH QHWZRUN
            FDUULHUV²KDYH FRQWLQXHG WR H[SDQG WKHLU PDUNHW VKDUHV DV PHDVXUHG LQ VFKHGXOHG
            DYDLODEOH SDVVHQJHU VHDWV %HWZHHQ 0D\  DQG 0D\  ORZFRVW FDUULHUV
            LQFUHDVHG WKHLU VKDUH DERXW  SHUFHQWDJH SRLQWV DQG QRZ UHSUHVHQW QHDUO\ D TXDUWHU RI DOO
            VFKHGXOHG DYDLODEOH VHDWV 7KH ³RWKHU´ FDUULHUV LQFUHDVHG WKHLU VKDUH  SHUFHQWDJH
            SRLQWV ,Q FRQWUDVW QHWZRUN FDUULHUV UHGXFHG FDSDFLW\ DQG VDZ WKHLU VKDUH RI WKH
            GRPHVWLF DYDLODEOH VHDWV GHFOLQH IURP  SHUFHQW LQ 0D\  WR  SHUFHQW LQ
            0D\  UHIOHFWLQJ D FRPELQDWLRQ RI VHDW UHGXFWLRQV DQG VHDW WUDQVIHUV WR UHJLRQDO
            SDUWQHUV >)LJXUH @

           0$5.(7 6+$5( $1' *52:7+ 2) /2:&267 &$55,(56 ,Q 0D\  6RXWKZHVW
            $LUOLQHV UHSUHVHQWHG  SHUFHQW RI WKH WRWDO QXPEHU RI SDVVHQJHU VHDWV VFKHGXOHG E\ WKH
            ORZFRVW FDUULHUV 6RXWKZHVW $LUOLQHV DOVR UHSUHVHQWHG  SHUFHQW RI WKH WRWDO JURZWK LQ
            ORZFRVW VHUYLFH RYHU WKH ODVW  \HDUV IROORZHG E\ $LU 7UDQ  SHUFHQW -HW%OXH
             SHUFHQW $PHULFDQ 7UDQV $LU  SHUFHQW )URQWLHU $LUOLQHV  SHUFHQW 6SLULW
            $LUOLQHV  SHUFHQW DQG $PHULFD :HVW $LUOLQHV  SHUFHQW >)LJXUHV  DQG @

           *52:7+ ,1 5(*,21$/ -(7 5- )/,*+76 )ROORZLQJ VHYHUDO \HDUV RI VLJQLILFDQW
            JURZWK WKH XVH RI UHJLRQDO MHWV FRQWLQXHG WR ULVH LQ HDUO\  ,Q 0D\ 
            VFKHGXOHG IOLJKWV RQ UHJLRQDO MHWV WRWDOHG  LQ 0D\  WKH\ WRWDOHG  DQ
            LQFUHDVH RI  SHUFHQW )OLJKWV RQ DOO RWKHU DLUFUDIW W\SHV GHFOLQHG GXULQJ WKLV \HDU
            SHULRG LQ VRPH FDVHV LQGLFDWLQJ UHSODFHPHQW E\ UHJLRQDO MHW VHUYLFH 6FKHGXOHG
            WXUERSURS DLUFUDIW IOLJKWV GHFOLQHG  SHUFHQW SLVWRQ DLUFUDIW IOLJKWV GHFOLQHG  SHUFHQW
            DQG IOLJKWV XVLQJ ODUJH MHWV KDYH GHFUHDVHG E\  SHUFHQW 6FKHGXOHG VHUYLFH RQ ODUJH
            MHWV IORZQ E\ QHWZRUN FDUULHUV LV DFWXDOO\ GRZQ  SHUFHQW EXW WKDW UHGXFWLRQ LV
            SDUWLDOO\ RIIVHW E\ WKH VLJQLILFDQW JURZWK RI ORZFRVW FDUULHU VHUYLFH XVLQJ ODUJH MHWV
            >)LJXUHV  DQG @

           5- )/,*+76 $7 /$5*( $,532576 5-V DUH DOVR UHSUHVHQWLQJ D ODUJHU VKDUH RI WKH WRWDO
            QXPEHU RI VFKHGXOHG IOLJKWV DW WKH  ODUJHVW DLUSRUWV 7KRVH DLUSRUWV ZLWK WKH KLJKHVW
            SHUFHQWDJHV RI 5- IOLJKWV DV RI 0D\  DUH &LQFLQQDWL  SHUFHQW 'XOOHV
             SHUFHQW 6DOW /DNH &LW\  SHUFHQW &KLFDJR 2¶+DUH  SHUFHQW +RXVWRQ
             SHUFHQW 1HZDUN  SHUFHQW 5HDJDQ 1DWLRQDO  SHUFHQW 'DOODV)W:RUWK
             SHUFHQW 6W /RXLV  SHUFHQW DQG /D*XDUGLD  SHUFHQW >)LJXUH @

,, $YLDWLRQ 6\VWHP 3HUIRUPDQFH

           )/,*+7 '(/$<6 $1' &$1&(//$7,216 'XULQJ WKH ILUVW  PRQWKV RI  WKH QXPEHU
            RI GHOD\HG IOLJKWV UHPDLQHG VXEVWDQWLDOO\ GRZQ IURP WKH VDPH SHULRG LQ 
             SHUFHQW +RZHYHU WKH FXPXODWLYH QXPEHU RI GHOD\HG IOLJKWV JUHDWO\ H[FHHGHG
            WKRVH LQ WKH VDPH SHULRG LQ   SHUFHQW )RU MXVW WKH PRQWK RI 0D\ GHOD\HG


          )RU WKLV DQDO\VLV ZH GHILQHG 5-V DV WKRVH MHW DLUFUDIW VHDWLQJ IURP  WR  SDVVHQJHUV RSHUDWHG E\ DOO
  Ã
  

          FDUULHUV DQG MHW DLUFUDIW VHDWLQJ  WR  SDVVHQJHUV RSHUDWHG E\ UHJLRQDO FDUULHUV
  Ã
                                                                                             

        DUULYDOV ZHUH  SHUFHQW KLJKHU WKDQ LQ 0D\  7KH QXPEHU RI FDQFHOHG IOLJKWV
        GXULQJ WKH ILUVW  PRQWKV RI  ZHUH ZHOO EHORZ WKH QXPEHU RI FDQFHOODWLRQV LQ
        HDUO\   SHUFHQW DQG VOLJKWO\ EHORZ WKH ILUVW  PRQWKV RI   SHUFHQW ,Q
        0D\ DORQH WKH QXPEHU RI FDQFHOODWLRQV  ZDV  SHUFHQW EHORZ 0D\ 
        >)LJXUHV  DQG @

     27+(5 ,1',&$7256 2) '(/$<6 7KH QXPEHU RI GHOD\HG DQG FDQFHOHG IOLJKWV LQ HDUO\
         KDV GHFOLQHG IURP WKH FRPSDUDEOH SHULRG RI  KRZHYHU WKH SHUFHQWDJH RI
        IOLJKWV GHOD\HG KDV LQFUHDVHG RYHU WKH ILUVW  PRQWKV RI  7KH FXPXODWLYH
        SHUFHQWDJH RI IOLJKWV H[SHULHQFLQJ DUULYDO GHOD\V GXULQJ WKH ILUVW  PRQWKV RI 
         SHUFHQW H[FHHGHG WKH GHOD\ UDWH IRU HDUO\   SHUFHQW DQG LV DSSURDFKLQJ
        WKH GHOD\ UDWH IRU WKH VDPH SHULRG LQ   SHUFHQW 'XULQJ WKH PRQWK RI
        0D\   SHUFHQW RI DUULYLQJ IOLJKWV H[SHULHQFHG GHOD\V QHDUO\ PDWFKLQJ WKH
         SHUFHQW RI WKH VDPH PRQWK RI  'XULQJ 0D\  WKH DYHUDJH OHQJWK RI JDWH
        DUULYDO GHOD\V  PLQXWHV PDWFKHG WKH OHQJWK RI GHOD\ IRU 0D\   PLQXWHV 7KH
        DYHUDJH OHQJWK RI JDWH DUULYDO GHOD\V GXULQJ WKH ILUVW  PRQWKV RI   PLQXWHV LV
         PLQXWHV ORQJHU WKDQ   PLQXWHV EXW VOLJKWO\ LPSURYHG IURP 
         PLQXWHV >)LJXUHV  DQG @

       '(/$<6 $7 6(/(&7(' $,532576 $OWKRXJK DUULYDO GHOD\V DFURVV WKH V\VWHP
        FRQWLQXHG WR ODJ  OHYHOV WKH FKDQJHV GLIIHU ZLGHO\ DPRQJ DLUSRUWV ZLWK VRPH
        DLUSRUWV H[SHULHQFLQJ GHOD\V DW OHYHOV VXEVWDQWLDOO\ KLJKHU WKDQ  )RU H[DPSOH LQ
        WKH ILUVW  PRQWKV RI  WKH QXPEHU RI GHOD\HG DUULYDOV ZDV XS  SHUFHQW DW &KLFDJR
        2¶+DUH  SHUFHQW DW 6DOW /DNH &LW\ DQG  SHUFHQW DW )W /DXGHUGDOH ,Q FRQWUDVW WKH
        WKUHH ODUJH KXE DLUSRUWV H[SHULHQFLQJ WKH JUHDWHVW SHUFHQWDJH UHGXFWLRQ LQ DUULYDO GHOD\V
        EHWZHHQ HDUO\  DQG  ZHUH 6W /RXLV  SHUFHQW /RV $QJHOHV  SHUFHQW
        DQG %RVWRQ  SHUFHQW >)LJXUH @

,,, $LUOLQH )LQDQFHV
       $,5/,1( 5(9(18(6 $1' (;3(16(6 &RPSDUHG WR WKH TXDUWHU HQGHG 0DUFK 
        RSHUDWLQJ UHYHQXHV RI WKH PDMRU SDVVHQJHU DLUOLQHV LQ WKH TXDUWHU HQGHG 0DUFK 
        ZHUH GRZQ E\  SHUFHQW DQG RSHUDWLQJ H[SHQVHV ZHUH XS E\  SHUFHQW &RPELQHG
        H[SHQVHV RI WKH PDMRU DLUOLQHV H[FHHGHG UHYHQXHV E\ DERXW  ELOOLRQ )XHO FRVWV KDYH
        HVFDODWHG VXEVWDQWLDOO\ RYHU WKH SDVW IHZ \HDUV ,Q  WKH DYHUDJH SULFH RI D EDUUHO RI
        RLO ZDV DSSUR[LPDWHO\  D VLJQLILFDQW ULVH RYHU WKH DYHUDJH  SULFH RI  SHU
        EDUUHO $7$ QRZ H[SHFWV WKH DYHUDJH LQ  WR H[FHHG  SHU EDUUHO >)LJXUH @

       $,5/,1( 23(5$7,1* 352),76 $1' /266(6 2SHUDWLQJ UHVXOWV IRU  VHOHFWHG QHWZRUN
        DQG ORZFRVW FDUULHUV YDULHG ZLGHO\ DPRQJ WKH DLUOLQHV ZLWK WKH ORZFRVW FDUULHUV
        JHQHUDOO\ UHDOL]LQJ KLJKHU SURILWV WKDQ PDQ\ RI WKH QHWZRUN FDUULHUV 2I WKH QLQH
        VHOHFWHG FDUULHUV SRVWLQJ ORVVHV LQ WKH ILUVW TXDUWHU RI  WZR FDUULHUV¶ ORVVHV ± 8QLWHG
        DQG 'HOWD ± DFFRXQWHG IRU  SHUFHQW RI WKH WRWDO 2I WKH ILYH VHOHFWHG FDUULHUV SRVWLQJ
        SURILWV LQ WKH ILUVW TXDUWHU RI  6RXWKZHVW¶V SURILW RI  PLOOLRQ DFFRXQWHG IRU
         SHUFHQW RI WKH WRWDO 6RXWKZHVW DWWULEXWHV LWV SURILWDELOLW\ LQ WKH ILUVW TXDUWHU WR LWV
                                                                                                                

           VXEVWDQWLDO IXHO KHGJHV ZKLFK DFFRXQW IRU  SHUFHQW RI LWV IXHO QHHGV RYHU WKH QH[W
            \HDUV >)LJXUH @

          $&&808/$7(' 1(7 /266(6 $1' 352),76 ,Q  QHWZRUN FDUULHUV EHJDQ LQFXUULQJ
           VXEVWDQWLDO QHW ORVVHV DFFXPXODWLQJ WR D WRWDO RI  ELOOLRQ E\ WKH HQG RI WKH ILUVW
           TXDUWHU RI  7KH ORVVHV PRXQWHG LQ UHVSRQVH WR WKH GRZQWXUQ LQ WKH HFRQRP\
           WHUURULVP RI ODWH  EDQNUXSWFLHV DQG UHRUJDQL]DWLRQV 7KUHH FDUULHUV DFFRXQWHG IRU
           WZRWKLUGV RI WKH QHWZRUN FDUULHUV¶ FRPELQHG ORVVHV 8QLWHG DFFXPXODWHG  ELOOLRQ
           LQ QHW ORVVHV IROORZHG E\ 'HOWD   ELOOLRQ DQG 86 $LUZD\V   ELOOLRQ 7KH
           ORZFRVW FDUULHUV PHDQZKLOH PDQDJHG WR DFFXPXODWH  PLOOLRQ LQ QHW SURILWV RYHU
           WKH VDPH SHULRG 6RXWKZHVW $LUOLQHV¶  ELOOLRQ LQ DFFXPXODWHG QHW SURILWV RIIVHW
           ORVVHV SRVWHG E\ PRVW RI WKH UHPDLQLQJ ORZFRVW FDUULHUV LQFOXGLQJ  PLOOLRQ LQ QHW
           ORVVHV SRVWHG E\ $PHULFD :HVW 7KUHH RWKHU ORZFRVW FDUULHUV DOVR HQWHUHG EDQNUXSWF\
           GXULQJ WKLV SHULRG 1DWLRQDO 6XQ &RXQWU\ DQG 9DQJXDUG ,W VKRXOG EH QRWHG WKDW WKHVH
           UHVXOWV DUH QHW RI DQ\ )HGHUDO ILQDQFLDO DVVLVWDQFH WKDW IROORZHG 6HSWHPEHU  
           >)LJXUH @

          &267 3(5 $9$,/$%/( 6($70,/( &$60 'HVSLWH VLJQLILFDQW HIIRUWV RYHU WKH ODVW
            \HDUV WR UHRUJDQL]H VWUHDPOLQH DQG RWKHUZLVH SDUH FRVWV QHWZRUN FDUULHUV DV D JURXS
           KDYH H[SHULHQFHG D JUDGXDO LQFUHDVH LQ WKH TXDUWHUO\ RSHUDWLQJ FRVW SHU DYDLODEOH
           VHDWPLOH &$60 ,Q WKH ILUVW TXDUWHU RI  WKH QHWZRUN FDUULHUV SRVWHG D &$60 RI
            FHQWV FRPSDUHG WR  FHQWV LQ WKH VDPH TXDUWHU RI  ,Q FRQWUDVW ORZFRVW
           FDUULHUV KDYH EHHQ DEOH WR PDLQWDLQ D UHODWLYHO\ FRQVWDQW &$60 RYHU WKH ODVW  \HDUV
           HYHQ ORZHULQJ LW VOLJKWO\ GHVSLWH ULVLQJ IXHO FRVWV ± LQ SDUW E\ PRYLQJ LQWR ORQJHU KDXO
           PDUNHWV ZKHUH IL[HG FRVWV DUH VSUHDG RYHU PRUH PLOHV 7KH ORZFRVW FDUULHU JURXS
           &$60 IRU WKH ILUVW TXDUWHU RI  ZDV  FHQWV FRPSDUHG WR  FHQWV LQ WKH VDPH
           TXDUWHU RI  >)LJXUH @

          $,5 )$5(6 $1' <,(/'6 ,QFUHDVHG SULFH VHQVLWLYLW\ DPRQJ EXVLQHVV SDVVHQJHUV
           FRXSOHG ZLWK DLUOLQHV¶ HIIRUWV WR VWLPXODWH RYHUDOO GHPDQG E\ GURSSLQJ IDUHV KDV
           VLJQLILFDQWO\ DIIHFWHG \LHOGV IRU HLJKW PDMRU DLUOLQHV WUDFNHG E\ $7$ %HWZHHQ
           0D\  DQG 0D\  WKH DYHUDJH DLU IDUH IRU D PLOH IOLJKW GURSSHG IURP 
           WR  UHVXOWLQJ LQ D SHUFHQW GHFOLQH LQ DLUOLQH \LHOGV IURP SDVVHQJHU WUDIILF
           >)LJXUHV  DQG @

          %86,1(66 $1' /(,685( 75$9(/ 7KH VKLIW LQ EXVLQHVV WUDYHO DZD\ IURP SUHPLXP
           XQUHVWULFWHG IDUHV WKDW EHJDQ LQ HDUO\  KDV FRQWLQXHG WKURXJK WKH IRXUWK TXDUWHU RI
            $W WKH ILYH EXVLHVW 86 DLUSRUWV WKH SHUFHQW RI GRPHVWLF SDVVHQJHUV WUDYHOLQJ
           RQ ILUVWFODVV EXVLQHVV FODVV RU XQUHVWULFWHG FRDFK WLFNHWV ± ZKLFK WUDGLWLRQDOO\ KDYH


         3DUWLDOO\ FRQWULEXWLQJ WR LQFUHDVHV LQ WKH QHWZRUN FDUULHUV¶ &$60 VWDUWLQJ LQ  LV D FKDQJH LQ DFFRXQWLQJ
         IRU WKH FRVWV RI VHOHFWHG DIILOLDWHG UHJLRQDO FDUULHU VHUYLFHV DGGLQJ VHYHUDO KXQGUHG PLOOLRQ GROODUV TXDUWHUO\
         LQ H[SHQVH QRW VLPLODUO\ UHFRUGHG LQ HDUOLHU SHULRGV

         7KH $7$ LQFOXGHV HLJKW DLUOLQHV LQ LWV ³PDMRU SDVVHQJHU DLUOLQH´ FODVVLILFDWLRQ $PHULFDQ &RQWLQHQWDO
         'HOWD 1RUWKZHVW 8QLWHG 86 $LUZD\V $ODVND DQG $PHULFD :HVW

         $V PHDVXUHG E\ SDVVHQJHU HQSODQHPHQWV DQG GHSODQHPHQWV WKH ILYH EXVLHVW DLUSRUWV DUH $WODQWD &KLFDJR
         2¶+DUH 'DOODV)W :RUWK 'HQYHU DQG /RV $QJHOHV
                                                                                                            

           EHHQ WKH IDUH FODVVHV XVHG E\ EXVLQHVV WUDYHOHUV ± GHFOLQHG IURP  SHUFHQW LQ WKH ILUVW
           TXDUWHU RI  WR  SHUFHQW LQ WKH IRXUWK TXDUWHU RI  7KLV SHUFHQW KDV UHPDLQHG
           IDLUO\ FRQVWDQW VLQFH WKH WKLUG TXDUWHU RI  UDQJLQJ IURP  SHUFHQW WR  SHUFHQW
           >)LJXUH @

          $,5/,1( /2$' )$&7256 /RDG IDFWRUV IRU WKH PDMRU SDVVHQJHU DLUOLQHV V\VWHP
           RSHUDWLRQV ZHUH  SHUFHQW IRU WKH TXDUWHU HQGLQJ 0DUFK  FRPSDUHG WR  SHUFHQW
           IRU WKH TXDUWHU HQGLQJ 0DUFK  )RU WKH TXDUWHU HQGLQJ 0DUFK  WKH EUHDNHYHQ
           ORDG IDFWRUV WKH DYHUDJH SHUFHQW RI SD\LQJ SDVVHQJHUV QHHGHG RQ DOO IOLJKWV WR FRYHU
           DLUOLQH FRVWV ZHUH  SHUFHQW ZKLOH DFWXDO ORDG IDFWRUV ZHUH  SHUFHQW D JDS RI
            SHUFHQWDJH SRLQWV 6HYHQ RI WKH QLQH ODUJHVW DLUOLQHV IDLOHG WR UHDFK WKHLU EUHDNHYHQ
           SRLQWV 1HYHUWKHOHVV WKH 0DUFK  EUHDNHYHQ JDS LV D VLJQLILFDQW LPSURYHPHQW RYHU
           WKH SULRU \HDU¶V SHUIRUPDQFH ,Q WKH TXDUWHU HQGLQJ 0DUFK  WKH JDS EHWZHHQ
           DFWXDO ORDG IDFWRUV DQG EUHDNHYHQ ORDG IDFWRUV ZDV  SHUFHQWDJH SRLQWV >)LJXUHV 
           DQG @

          )8(/ &2676 2QH IDFWRU KDPSHULQJ WKH DLUOLQHV HIIRUWV WR UHGXFH RSHUDWLQJ H[SHQVHV
           KDV EHHQ WKH LQFUHDVH LQ MHW IXHO FRVWV ZKLFK LQFUHDVHG DQ DYHUDJH RI DOPRVW  SHUFHQW
           GXULQJ  FRPSDUHG WR  -HW IXHO FRVWV KDYH LQFUHDVHG VKDUSO\ VLQFH PLG\HDU
            IURP  LQ -XQH  WR  LQ 0D\  7KH $7$ DQWLFLSDWHV WKDW WKH
           JURZWK IURP  ZLOO FRVW WKH LQGXVWU\ DQ DGGLWLRQDO  ELOOLRQ LQ  >)LJXUH @

          $,5/,1( '(%7 72 ,19(670(17 5$7,2 7KH GHEW WR LQYHVWPHQW UDWLR IRU PDMRU
           SDVVHQJHU DLUOLQHV ZDV  SHUFHQW IRU WKH TXDUWHU HQGLQJ 0DUFK  ± D QHZ \HDU
           KLJK DQG QHDUO\ GRXEOH WKH DYHUDJH GHEW WR LQYHVWPHQW UDWLR RI WKH DLUOLQHV LQ WKH WKLUG
           TXDUWHU RI   SHUFHQW 7KH GHEW WR LQYHVWPHQW UDWLR LV RQH PHDVXUH RI DQ
           DLUOLQH¶V DELOLW\ WR ILQDQFH RSHUDWLRQV LQ WKH IDFH RI XQFHUWDLQ RSHUDWLQJ UHYHQXHV ,Q WKH
           TXDUWHU HQGLQJ 0DUFK  IRXU RI WKH QLQH ODUJHVW DLUOLQHV KDG GHEW WR LQYHVWPHQW
           UDWLRV DERYH  SHUFHQW LQFOXGLQJ 8QLWHG $LUOLQHV  SHUFHQW 'HOWD $LU /LQHV
            SHUFHQW 86 $LUZD\V  SHUFHQW DQG $PHULFDQ $LUOLQHV  SHUFHQW ,Q
           FRQWUDVW 6RXWKZHVW $LUOLQHV¶ GHEW WR LQYHVWPHQW UDWLR ZDV  SHUFHQW >)LJXUHV 
           DQG @

          $,53257 $1' $,5:$< 75867 )81' 75867 )81' /RZHU GHPDQG DQG ORZHU DYHUDJH
           WLFNHW SULFHV KDYH DOVR UHGXFHG UHYHQXHV IRU WKH $LUSRUW DQG $LUZD\ 7UXVW )XQG
           %HIRUH 6HSWHPEHU   WKH )$$ SURMHFWHG RYHUDOO UHYHQXHV RI  ELOOLRQ IRU
           )LVFDO <HDU  )$$ QRZ HVWLPDWHV  ELOOLRQ LQ UHYHQXHV LQ  D UHGXFWLRQ RI
           DERXW  SHUFHQW 'XULQJ WKH QH[W  \HDUV  WKURXJK  $LUSRUW DQG $LUZD\
           7UXVW )XQG UHFHLSWV DUH H[SHFWHG WR EH DERXW  ELOOLRQ OHVV WKDQ SURMHFWLRQV PDGH LQ
           $SULO  D GLIIHUHQFH RI DERXW  SHUFHQW >)LJXUH @


         '27 SXEOLVKHV GHEW WR WRWDO LQYHVWPHQW UDWLRV LQ WKH 0DMRU $LUOLQH 4XDUWHUO\ )LQDQFLDO 5HYLHZ 'HEW LV
           Ã


         GHILQHG DV ORQJWHUP GHEW FDSLWDO OHDVHV DQG DGYDQFHV IURP DVVRFLDWHG FRPSDQLHV OHVV XQDPRUWL]HG GHEW
         H[SHQVHV 7RWDO LQYHVWPHQW LQFOXGHV DOO WKH GHEW LWHPV SOXV VWRFNKROGHUV¶ HTXLW\

         7KH 7UXVW )XQG¶V ODUJHVW IXQGLQJ VRXUFH LV WKH  SHUFHQW WLFNHW WD[ $ FRPELQDWLRQ RI ORZHU DYHUDJH IDUHV
         DQG IHZHU WLFNHW VDOHV UHVXOW LQ ORZHU WD[ UHYHQXHV IRU WKH 7UXVW )XQG
                                                                                                              



,9 $LU 6HUYLFH DW 6PDOO $LUSRUWV
            &+$1*(6 ,1 $,5 6(59,&( 6LQFH  VFKHGXOHG FDSDFLW\ DW QRQKXE DLUSRUWV KDV
             FRQWLQXHG WR GHFOLQH FRPSDUHG WR  OHYHOV IROORZLQJ D SHULRG RI VWHHS ORVV ZKHQ
             DYDLODEOH VHDWV GHFUHDVHG EHWZHHQ  DQG  SHUFHQW HDFK PRQWK LQ HDUO\  'XULQJ
             WKLV VDPH SHULRG FDSDFLW\ DW ODUJH PHGLXP DQG VPDOO KXE DLUSRUWV LQFUHDVHG
              SHUFHQW RYHU  OHYHOV )ROORZLQJ WKH 6HSWHPEHU   WHUURULVW DWWDFNV
             VHUYLFH DW DOO DLUSRUWV GHFOLQHG +RZHYHU WKH QXPEHU RI VFKHGXOHG VHDWV KDV UHERXQGHG
             DW ODUJHU DLUSRUWV ZKHUH YLUWXDOO\ DOO RI WKH ORZFRVW FDUULHU VHUYLFH JURZWK KDV
             RFFXUUHG &DSDFLW\ KDV QRW \HW UHWXUQHG DW QRQKXE DLUSRUWV $W VPDOO PHGLXP DQG
             ODUJH KXE DLUSRUWV VFKHGXOHG VHUYLFH LQ 0D\  H[FHHGHG 0D\  OHYHOV E\
              SHUFHQW ZKLOH VHUYLFH DW QRQKXE DLUSRUWV VWLOO ODJJHG  OHYHOV E\  SHUFHQW
             >)LJXUH @

            121+8% $,53257 6(59,&( /266 %< 5(*,21 6HUYLFH FXWEDFNV DW QRQKXE DLUSRUWV
             KDYH ODUJHO\ EHHQ FRQFHQWUDWHG LQ WKH QRUWKHDVW DQG PLGZHVW VWDWHV ,Q 0D\ 
             FDSDFLW\ DV PHDVXUHG E\ DYDLODEOH VHDWV DW QRQKXE DLUSRUWV LQ WKHVH WZR UHJLRQV
             FRPELQHG ZDV  SHUFHQW EHORZ WKH FDSDFLW\ OHYHO RI 0D\  &DSDFLW\ DW QRQKXE
             DLUSRUWV KDV DOVR GHFOLQHG LQ WKH VRXWKHUQ DQG ZHVWHUQ UHJLRQV RI WKH 8QLWHG 6WDWHV
             KRZHYHU WKH GURS RQ D SHUFHQWDJH EDVLV KDV QRW EHHQ DV SURQRXQFHG ,Q 0D\ 
             FDSDFLW\ LQ WKH VRXWKHUQ DQG ZHVWHUQ UHJLRQV FRPELQHG GHFOLQHG  SHUFHQW IURP
             0D\  OHYHOV >)LJXUH @

            $&&(66 72 /$5*( $,532576 7KH ORVV LQ VHUYLFH EHWZHHQ QRQKXE DLUSRUWV DQG ODUJH
             DLUSRUWV ZDV PRUH SURQRXQFHG WKDQ VHUYLFH ORVV EHWZHHQ ODUJH DQG RWKHUVL]HG DLUSRUWV
             %HWZHHQ 0D\  DQG 0D\  VFKHGXOHG IOLJKWV EHWZHHQ QRQKXE DQG WKH ODUJHVW
             DLUSRUWV GHFOLQHG E\  SHUFHQW )OLJKWV FRQQHFWLQJ ODUJH KXE DLUSRUWV DOVR GHFOLQHG
             DOWKRXJK DW D OHVVHU UDWH RI  SHUFHQW ZKLOH WKH QXPEHU RI IOLJKWV FRQQHFWLQJ ODUJH KXE
             DLUSRUWV ZLWK VPDOO DQG PHGLXPKXE DLUSRUWV UHPDLQHG UHODWLYHO\ FRQVWDQW >)LJXUH @

            5(*,21$/ -(7 5- *52:7+             2YHUDOO VFKHGXOHG IOLJKWV DW QRQKXE DLUSRUWV
             LQYROYLQJ UHJLRQDO MHWV 5-V MXPSHG  SHUFHQW EHWZHHQ 0D\  DQG 0D\  ,Q
             FRPSDULVRQ IOLJKWV LQYROYLQJ RWKHU DLUFUDIW W\SHV H[SHULHQFHG VKDUS GHFOLQHV LQFOXGLQJ
             ODUJH MHWV  SHUFHQW WXUERSURS  SHUFHQW DQG SLVWRQ  SHUFHQW 2YHUDOO
             VFKHGXOHG IOLJKWV E\ DOO DLUFUDIW DW QRQKXE DLUSRUWV DUH GRZQ  SHUFHQW IURP
              OHYHOV >)LJXUH @

            /2:&267 &$55,(5 6(59,&( $7 121+8% $,532576 6HUYLFH DW QRQKXE DLUSRUWV
             FRQWLQXHV WR EH GRPLQDWHG E\ UHJLRQDO FDUULHUV IO\LQJ RQ EHKDOI RI QHWZRUN FDUULHUV
             7KH QHWZRUN FDUULHUV DUH LQFUHDVLQJO\ UHO\LQJ RQ UHJLRQDO SDUWQHUV ZLWK WKHLU VPDOOHU
             DLUFUDIW IRU PRUH HFRQRPLFDO FRQQHFWLRQV WR OHVV GHQVH PDUNHWV 6LPLODUO\ ORZFRVW
             FDUULHUV FRQWLQXH WR DYRLG QRQKXE DLUSRUWV ZKHUH GHPDQG IRU SRLQWWRSRLQW VHUYLFH LV

  
           )RU WKH SXUSRVHV RI WKLV DQDO\VLV  ZDV VHOHFWHG DV D EDVH SHULRG LQ RUGHU WR LQFRUSRUDWH DQG LOOXVWUDWH
           VHYHUDO \HDUV RI JURZWK LQ  DQG  DV FRPSDULVRQ WR WKH VXEVHTXHQW GRZQWXUQ LQ VHUYLFH
                                                                                                               

           LQVXIILFLHQW WR PDNH LW HFRQRPLFDOO\ IHDVLEOH WR VHUYH ZLWK WKHLU IOHHWV RI ODUJHU DLUFUDIW
           2YHUDOO ORZFRVW DLUOLQHV VFKHGXOHG VHUYLFH WR RQO\  RI WKH PRUH WKDQ  QRQKXE
           DLUSRUWV LQ 0D\  UHSUHVHQWLQJ DSSUR[LPDWHO\  SHUFHQW RI WKH WRWDO DYDLODEOH
           SDVVHQJHU VHDWV DW WKHVH DLUSRUWV %\ FRPSDULVRQ WKH QHWZRUN DQG RWKHU VPDOOHU DLUOLQHV
           FRPSULVHG  SHUFHQW DQG  SHUFHQW UHVSHFWLYHO\ RI VFKHGXOHG DYDLODEOH VHDWV IURP
           QRQKXE DLUSRUWV >)LJXUH @

          (66(17,$/ $,5 6(59,&( ($6 :KHQ PDQ\ VPDOO FRPPXQLWLHV ZHUH LQ GDQJHU RI
           ORVLQJ VFKHGXOHG DLU VHUYLFH IROORZLQJ 6HSWHPEHU   &RQJUHVV UHVSRQGHG E\
           PRUH WKDQ GRXEOLQJ WKH IXQGV DYDLODEOH WKURXJK WKH ($6 3URJUDP %HWZHHQ )LVFDO
           <HDU  DQG )LVFDO <HDU  IXQGLQJ URVH IURP  PLOOLRQ WR  PLOOLRQ DQG WKH
           QXPEHU RI FRPPXQLWLHV UHFHLYLQJ VXEVLGL]HG VHUYLFH LQFUHDVHG IURP  WR  ,W LV
           XQFOHDU ZKHWKHU DQG WR ZKDW H[WHQW WKH VXEVLGLHV ZLOO EH VXVWDLQHG DW WKLV OHYHO DV WKH
           3UHVLGHQW
V )LVFDO <HDU  EXGJHW UHTXHVWV RQO\  PLOOLRQ LQ IXQGLQJ 7KH ILQDO
           IXQGLQJ OHYHO ZLOO EH VXEMHFW WR WKH FRQJUHVVLRQDO DSSURSULDWLRQV SURFHVV >)LJXUH @





         7KHVH GDWD LQFOXGH RQO\ WKRVH QRQKXE DLUSRUWV WKDW UHFHLYH DW OHDVW RQH VFKHGXOHG IOLJKW SHU ZHHN
                                                                                                                                                                                                                                                                                                                                                                                                                                  16
                                                                                                                                                                                               Airline Industry Metrics


   Figure 1: Domestic Passenger Enplanements                                                                                                                                                                                                                            Figure 2: Domestic Passenger Capacity vs. Demand
   Percent Change in Revenue Passenger Enplanements from 2000                                                                                                                                                                                                           Percent Change in Available Seat Miles (ASM) vs. Revenue Passenger
   (ATA Data)                                                                                                                                                                                                                                                           Miles (RPM) from 2000 (ATA Data)                         May '04 RPM
                                                                                                                                                                                                                                                                                      10%                                                                                                                               -3%
                  10%
                                                                                                                                                                                                                                                                                      0%
                   0%




                                                                                                                                                                                                                                                                 Percentage
                                                                                                                                                                                                                                                                                -10%
  Percentage




                  -10%

                                                                                                                                                                                                                                                                                -20%                                                                                                         May '04 ASM
                  -20%                                                                                                                                                                                                                                                                                                                                                                           -5%
                                                                                                                                                                                                                                                                                -30%
                  -30%                                                                                                       Sep '01                                                                                  May '04
                                                                                                                              -34%                                                                                     -13%
                                                                                                                                                                                                                                                                                -40%
                  -40%




                                                                                                                                                                                                                                                                                                                                                                                           Apr-03




                                                                                                                                                                                                                                                                                                                                                                                                                                    Apr-04
                                                                                                                                                                                                                                                                                                                                                                        Oct-02




                                                                                                                                                                                                                                                                                                                                                                                                              Oct-03
                                                                                                                                                                                                                                                                                                                                                              Jul-02



                                                                                                                                                                                                                                                                                                                                                                                  Jan-03



                                                                                                                                                                                                                                                                                                                                                                                                     Jul-03



                                                                                                                                                                                                                                                                                                                                                                                                                         Jan-04
                                                                                                                                                                                                                                                                                                     Apr-01




                                                                                                                                                                                                                                                                                                                                                     Apr-02
                                                                                                                                                                                                                                                                                                                             Oct-01
                                                                                                                                                                                                                                                                                            Jan-01



                                                                                                                                                                                                                                                                                                                 Jul-01



                                                                                                                                                                                                                                                                                                                                        Jan-02
                                               Apr-01




                                                                                                                Apr-02




                                                                                                                                                                              Apr-03




                                                                                                                                                                                                                                             Apr-04
                                                                               Oct-01




                                                                                                                                                 Oct-02




                                                                                                                                                                                                             Oct-03
                            Jan-01



                                                            Jul-01



                                                                                            Jan-02



                                                                                                                             Jul-02



                                                                                                                                                              Jan-03



                                                                                                                                                                                              Jul-03



                                                                                                                                                                                                                               Jan-04



                                                                                                                                                                                                                                                                                                                Available Seat Miles                                             Revenue Passenger Miles



         Figure 3: Actual Flight Operations                                                                                                                                                                                                                     Figure 4: Nine Major Airlines Reported Arrivals
         Percent Change in Air Route Traffic Control Center Operations from
                                                                                                                                                                                                                                                                Percent Change in Actual Arrivals by Airline 5/04 vs. 5/00
         2000 (FAA Data)
                                                                                                                                                                                                                                                                (FAA Data 32 major airports)
                   5%                                                                                                                                                                                                                                                                  25%           19%
                                                                                                                                                                                                                                                                                                                          12%

                   0%                                                                                                                                                                                                                                                                  10%
     Percentage




                                                                                                                                                                                                                                                                         Percentage




                                                                                                                                                                                                                                                                                       -5%                                             -1%
                   -5%                                                                                                                                                                                                                                                                                                                                     -4%

                                                                                                                                                                                                                   May '04
                                                                                                                                                                                                                                                                                      -20%
                  -10%                                                                                                                                                                                              -1%                                                                                                                                                -18%          -19%
                                                                                                                                                                                                                                                                                                                                                                                                    -22%
                                                                                                                             Sep '01                                                                                                                                                                                                                                                                           -26%
                                                                                                                              -16%                                                                                                                                                    -35%
                  -15%
                                                                                                                                                                                                                                                                                                                                                                                                                                  -40%
                                                                                                                                                                                                                                                                                      -50%
                  -20%




                                                                                                                                                                                                                                                                                                                                                                                                                                    s
                                                                                                                                                                                                                                                                                                                                                                                                              an
                                                                                                                                                                                                                                                                                                                                         t




                                                                                                                                                                                                                                                                                                                                                                                                    ed
                                                                                                                                                                                                                                                                                                                       t




                                                                                                                                                                                                                                                                                                                                                          t




                                                                                                                                                                                                                                                                                                                                                                                       l
                                                                                                                                                                                                                                                                                                     ka




                                                                                                                                                                                                                                                                                                                                                                     lta
                                                                                                                                                                                                                                                                                                                                      es




                                                                                                                                                                                                                                                                                                                                                                                    nta
                                                                                                                                                                                                                                                                                                                    es




                                                                                                                                                                                                                                                                                                                                                       es




                                                                                                                                                                                                                                                                                                                                                                                                                                  ay
                                                                                                                                                                                                                                                                                                                                                                                                               c
                                                                                                                                                                                                                                                                                                    as




                                                                                                                                                                                                                                                                                                                                                                                                it
                                                                                                                                                                                                                                                                                                                                                                   De
                                                Apr-01




                                                                                                                 Apr-02




                                                                                                                                                                                  Apr-03




                                                                                                                                                                                                                                                   Apr-04




                                                                                                                                                                                                                                                                                                                                 aW
                                                                                Oct-01




                                                                                                                                                   Oct-02




                                                                                                                                                                                                                  Oct-03




                                                                                                                                                                                                                                                                                                                   w




                                                                                                                                                                                                                                                                                                                                                       w
                             Jan-01



                                                             Jul-01



                                                                                              Jan-02



                                                                                                                               Jul-02



                                                                                                                                                                Jan-03



                                                                                                                                                                                                Jul-03



                                                                                                                                                                                                                                 Jan-04




                                                                                                                                                                                                                                                                                                                                                                                                                          rw
                                                                                                                                                                                                                                                                                                                                                                                                            eri
                                                                                                                                                                                                                                                                                                                                                                                  ne


                                                                                                                                                                                                                                                                                                                                                                                             Un
                                                                                                                                                                                                                                                                                                 Al


                                                                                                                                                                                                                                                                                                                uth




                                                                                                                                                                                                                                                                                                                                                    rth




                                                                                                                                                                                                                                                                                                                                                                                                                        Ai
                                                                                                                                                                                                                                                                                                                                                                                                         Am
                                                                                                                                                                                                                                                                                                                                                                              nti
                                                                                                                                                                                                                                                                                                                                c

                                                                                                                                                                                                                                                                                                                                                 No
                                                                                                                                                                                                                                                                                                              So


                                                                                                                                                                                                                                                                                                                             eri




                                                                                                                                                                                                                                                                                                                                                                           Co




                                                                                                                                                                                                                                                                                                                                                                                                                       US
                                                                                                                                                                                                                                                                                                                          Am




Figure 5: Domestic Scheduled Capacity                                                                                                                                                                                                                           Figure 6: Regional Differences at All Airports
Percent Change in Scheduled Flights and Available Seats at
                                                                                                                                                                                                                                                                Percent Change in Available Seats at All Airports 5/04 vs. 5/00
All Airports from 2000 (FAA Data)
                                                                                                                                                                                                                                                                (FAA Data)
                   4%                                                                                                                                                                                                                                                                                                                                                            Midwest
                                                                                                                                                                                                                                                                                            West                                                                                  -14%
                   0%                                                                                                                                                                                                                                                                       -9%
                                                                                                                                                                                                                                                                                                                                                                                                                       Northeast
Percentage




                  -4%                                                                                                                                                                                                                                                                                                                                                                                                   -14%

                  -8%

               -12%                                                                                                                                                                                                                                                                                                                                                                                      South
                                                                                                                                                                                                                                                                                                                                                                                                          -6%
               -16%
                                                 May-01




                                                                                                                    May-02




                                                                                                                                                                                     May-03




                                                                                                                                                                                                                                                       May-04
                                                                                  Nov-01




                                                                                                                                                     Nov-02




                                                                                                                                                                                                                      Nov-03
                                      Mar-01



                                                                      Sep-01



                                                                                                       Mar-02



                                                                                                                                        Sep-02



                                                                                                                                                                         Mar-03



                                                                                                                                                                                                         Sep-03



                                                                                                                                                                                                                                          Mar-04
                         Jan-01



                                                          Jul-01



                                                                                           Jan-02



                                                                                                                             Jul-02



                                                                                                                                                              Jan-03



                                                                                                                                                                                              Jul-03



                                                                                                                                                                                                                                Jan-04




                                                                                                                                                                                                                                                                                                                             National Average -10%
                                                              Scheduled Flights                                                                                             Available Seats
                                                                                                                                                                               17
                                                 Airline Industry Metrics


Figure 7: Change in Capacity at Large Airports                                Figure 8: Length of Flight
Percent Change in Scheduled Flights and Available Seats at the                Percent Change in Scheduled Flights by Length of Flight
31 Largest Airports 5/04 vs. 5/00 (FAA Data)                                  5/04 vs. 5/00 (FAA Data)


  -80%    -60%    -40%    -20%     0%      20%     40%                                      20%                                                 14%
                                                                                                                                                                     9%
                                                      Fort Lauderdale                       10%




                                                                              Percentage
                                                      Kennedy                                0%

                                                      Las Vegas                            -10%
                                                                                                                          -10%
                                                      Baltimore                            -20%

                                                      Atlanta                              -30%         -27%

                                                      Orlando                              -40%
                                                                                                        0 to 249         250 to 499           500 to 999            1,000+
                                                      Houston
                                                                                                                                 Miles
                                                      Denver

                                                      Tampa

                                                      San Diego              Figure 9: Short Haul Flights by Type of Airline
                                                                             Percent Change in Scheduled Flights Less Than 250 Miles by Type of
                                                      Minneapolis            Airline 5/04 vs. 5/00 (FAA Data)

                                                      Phoenix
                                                                                            0%
                                                      Cincinnati

                                                      Chicago O'Hare
                                                                                           -15%
                                                                         Percentage




                                                                                                                                      -14%
                                                      Detroit

                                                      Salt Lake City                       -30%                                                                   -25%

                                                      LaGuardia

                                                      Seattle                              -45%
                                                                                                           -43%

                                                      Philadelphia
                                                                                           -60%
                                                      Dallas-Ft. Worth                                   Network                 Low-Cost                    All Others

                                                      Charlotte

                                                      Reagan National
                                                                          Figure 10: Airline Domestic Market Share
                                                      Miami
                                                                          Airline Market Share by Available Seats (FAA Data)
                                                      Newark                                75%


                                                      Boston                                      62%              61%
                                                                                            60%                                   57%
                                                                                                                                                      54%
                                                      Los Angeles                                                                                                        52%
                                                                              Percentage




                                                                                            45%
                                                      Dulles

                                                      Honolulu                              30%                                                            23% 23%           24% 24%
                                                                                                             20%                       22% 21%
                                                                                                    18%              19% 20%
                                                      San Francisco
                                                                                            15%
                                                      Pittsburgh

                                                      St. Louis                             0%
                                                                                                    5/00             5/01              5/02                5/03            5/04


             Scheduled Flights                Available Seats
                                                                                                               Network           Low-Cost              All Others
                                                                                                                                                                   18
                                                                     Airline Industry Metrics

Figure 11: Market Share of Low-Cost Carrier Service                                  Figure 14: Regional Jets at 31 Large Hub Airports
Airline Share of Service by Available Seats, 5/04 (FAA Data)                         RJs Share of Scheduled Flights at 31 Largest Airports 5/04 vs. 5/00
                                                                                     (FAA Data)

                                                           America West,                                0%     15%        30%           45%          60%          75%
                                        Other, 1%             12%
                         Spirit, 3%                                                       Cincinnati

                                                                                              Dulles
                    Frontier, 4%
                                                                                       Salt Lake City

                  JetBlue, 6%                                                        Chicago O'Hare

                                                                                            Houston
                   ATA, 7%
                                                                      Southwest,             Newark
                                       AirTran, 8%                      59%
                                                                                     Reagan National

                                                                                     Dallas-Ft. Worth

                                                                                            St. Louis

                                                                                          LaGuardia
Figure 12: Share of Low-Cost Carrier Service Growth
Airline Share of Growth by Available Seats, 5/04 vs. 5/98 (FAA Data)                       Pittsburgh

                                                                                              Detroit

                                                                                              Boston
                                                    America West,
                                Spirit, 5%Other, 2%     2%                                   Atlanta
                                                               Southwest,
                         Frontier, 7%                             38%                       Charlotte

                                                                                         Philadelphia
                   ATA, 11%
                                                                                         Minneapolis

                        JetBlue, 16%                                                         Denver

                                                      AirTran, 19%                          Kennedy

                                                                                             Orlando

                                                                                       San Francisco

                                                                                             Phoenix

                                                                                         Los Angeles
     Figure 13: Type of Aircraft
     Percent Change in Number of Domestic Scheduled Flights by Type of Aircraft           San Diego
     5/04 vs. 5/00 (FAA Data)
                                                                                              Miami
                200%                                                    180%         Fort Lauderdale

                150%                                                                       Baltimore

                100%                                                                          Tampa
   Percentage




                 50%                                                                       Las Vegas
                                                                                                                       Out of the 31 large hub airports tracked
                  0%                                                                          Seattle                 by the FAA, Honolulu is the only one
                                                                                                                      without any regional jet service in both
                -50%                       -19%           -14%                             Honolulu                   years.
                            -49%
                -100%
                          Turboprop      Large Jets       Piston     Regional Jets                       May 2000                           May 2004
                                                                                                                                                                                                                                                                                                                  19
                                                                                                                           Airline Industry Metrics

                Figure 15: Market Share by Aircraft Type                                                                                             Figure 16: Number of Flights With Delayed Arrivals
                Percent Share of Scheduled Flights by Type of Aircraft (FAA Data)                                                                    (FAA Data - Nine major airlines, 32 major airports)
                                                                                                                                                                                                                               May '04 v '00 -25%
                                                                                                                                                                                       120,000
                           60%                57%
                                                                             54%                                                                                                                                           May '04 v '03 + 56%
                                                                                                                      50%                                                              100,000
                           50%




                                                                                                                                                                    Delayed Arrivals
                                                                                                                                                                                        80,000
                           40%
           Percentage




                                                         28%                                                                 29%                                                        60,000
                           30%
                                                                                           21%
                                                                                     18%
                           20%                                                                                                      16%                                                 40,000

                                                    9%
                           10%                                 6%                                  6%                                     5%                                            20,000

                                  0%                                                                                                                                                          0




                                                                                                                                                                                                                                                                                 Aug
                                                                                                                                                                                                                                            Apr




                                                                                                                                                                                                                                                                         Jul
                                                                                                                                                                                                                   Feb




                                                                                                                                                                                                                                                        May

                                                                                                                                                                                                                                                                Jun
                                                                                                                                                                                                       Jan




                                                                                                                                                                                                                                                                                        Sep



                                                                                                                                                                                                                                                                                                           Nov

                                                                                                                                                                                                                                                                                                                   Dec
                                                                                                                                                                                                                                Mar




                                                                                                                                                                                                                                                                                                 Oct
                                                      5/00                             5/02                                    5/04


                                                          Large Jets     Regional Jets             Turboprop               Piston                                                                                         2000                                        2003                         2004



             Figure 17: Cancellations                                                                                                                                                    Figure 18: Percent of Flights Arriving Late
             (FAA Data - Nine major airlines, 32 major airports)
                                                                                                                                                                                         (FAA Data - Nine major airlines, 32 major airports)
                                  24,000                                                                                                                                               40%
                                                                       May '04 v '00
                                                                          -73%                                                                                                                                                          May '04                                        Dec '00
                                  20,000                                                                                                                                                                                                                                                33%
                                                                                                                                                                                                                                         22%
                                                                                                                                                                                       30%
                                  16,000
                  Cancellations




                                                                                                                                                       Percentage




                                  12,000                                                                                                                                               20%

                                      8,000
                                                                                                                                                                                       10%
                                      4,000

                                          0                                                                                                                                            0%

                                                                                                                                                                                                                                                                                Aug
                                                                                                                                                                                                                                      Apr
                                                                                                                                                                                                         Feb




                                                                                                                                                                                                                                                  May

                                                                                                                                                                                                                                                              Jun




                                                                                                                                                                                                                                                                                       Sep




                                                                                                                                                                                                                                                                                                           Nov
                                                                                                                                                                                                                         Mar




                                                                                                                                                                                                                                                                                                                    Dec
                                                                                                                                                                                                                                                                       Jul




                                                                                                                                                                                                                                                                                                 Oct
                                                                                                                                                                                               Jan
                                                         Feb




                                                                               May




                                                                                                               Aug




                                                                                                                                      Nov
                                                                                                   Jul
                                                                       Apr




                                                                                                                              Oct



                                                                                                                                               Dec
                                                                Mar
                                                Jan




                                                                                       Jun




                                                                                                                       Sep




                                                               2000                          2003                                  2004                                                                               2000                                          2003                           2004



          Figure 19: Length of Arrival Delays                                                                                                                   Figure 20: Worst and Best Changes in Arrival Delays by
          (FAA Data - Nine major airlines, 32 major airports)                                                                                                   Airport - P ercent Change in Arrival Delays for
                                                                                                                                                                    Year-to-Date 05/2004 vs. 5/2000 (FAA Data)
                        75                                May '04                                   June '00                                                                           60%
                                                         58 Minutes                                59 Minutes                                                                                     40%
                        60                                                                                                                                                             40%                                31%
                                                                                                                                                                                                                                                   23%
                                                                                                                                                                                       20%
Minutes




                                                                                                                                                            Percentage




                        45
                                                                                                                                                                                        0%
                        30
                                                                                                                                                                                  -20%

                        15
                                                                                                                                                                                  -40%
                                                                                                                                                                                                                                                                        -41%           -43%
                                  0                                                                                                                                               -60%                                                                                                                     -52%
                                                Feb




                                                                         May




                                                                                                         Aug




                                                                                                                                      Nov
                                                                                             Jul
                                                                 Apr




                                                                                                                             Oct




                                                                                                                                               Dec
                                                         Mar
                                        Jan




                                                                                 Jun




                                                                                                                     Sep




                                                                                                                                                                                                a re                       y                       al e                   n                 s                is
                                                                                                                                                                                                                       Cit                     e rd                    sto           el e                 ou
                                                                                                                                                                                             O'H                   ake                                              Bo             ng
                                                                                                                                                                                                                                                                                                  St.
                                                                                                                                                                                                                                                                                                      L
                                                                                                                                                                                                               L                         aud                                     sA
                                                                                                                                                                                                       Sa
                                                                                                                                                                                                          lt
                                                                                                                                                                                                                                 Ft.
                                                                                                                                                                                                                                     L                                         Lo
                                                          2000                             2003                                2004
                                                                                                                                                                                                                                                                                                    20
                                                                                                                                       Airline Industry Metrics

Figure 21: Revenues vs. Expenses                                                                                                                                              Figure 22: Selected Network and Low-Cost Airlines
 Major Passenger Carriers Operating Revenues vs. Operating Expenses                                                                                                           Operating Profit or Loss
1Q 2000 through 1Q 2004 (DOT Data)
                                                                                                                                                                              System Operations for Quarter Ending 3/31/04 (DOT Data)
                       $30                                                                                                          Expenses
                                                                                                                                     $22.4                                                                            $ Millions
                       $25                                                                                                                                                     -$450               -$350      -$250           -$150      -$50              $50

                       $20
                                                                                                                                                                                                                                                                 $46         Southwest
          $ Billions




                       $15
                                                                                                                                    Revenues                                                                                                                   $33           JetBlue
                       $10                                                                                                           $21.4
                                                                                                                                                                                                                                                           $19               America West
                          $5

                                                                                                                                                                                                                                                          $10                AirTran
                          $0
                               1Q 00

                                        2Q 00

                                                 3Q 00

                                                          4Q 00

                                                                   1Q 01



                                                                                   3Q 01

                                                                                           4Q 01

                                                                                                   1Q 02
                                                                                                           2Q 02

                                                                                                                   3Q 02

                                                                                                                            4Q 02
                                                                                                                                     1Q 03

                                                                                                                                             2Q 03

                                                                                                                                                     3Q 03
                                                                                                                                                             4Q 03

                                                                                                                                                                     1Q 04
                                                                           2Q 01




                                                                                                                                                                                                                                                          $3                 Spirit
                                                         Operating Revenues                                                Operating Expenses
                                                                                                                                                                                                                                              -$7                            Frontier


Figure 23: Accumulated Net Losses and Gains                                                                                                                                                                                             -$25                                 American
1Q 01 cumulatively through 1Q 04 (DOT data)                                                                                Low-Cost Carriers +$398
                                                                                                                           million(1Q 04)                                                                                               -$28                                 American Trans Air
                               $0
                       -$2,000                                                                                                                                                                                                        -$47                                   Alaska
                       -$4,000
                       -$6,000                                                                                                                                                                                                   -$79                                        Continental
                       -$8,000
   $ millions




                  -$10,000                                                                                                                                                                                                    -$102                                          Northwest
                  -$12,000
                  -$14,000
                                                                                                                                                                                                                      -$146                                                  US Airways
                  -$16,000
                  -$18,000
                                                                                                                                                                                                    -$304                                                                    United
                  -$20,000
                  -$22,000                      Network Carriers -$23.4 billion (1Q 04)

                  -$24,000                                                                                                                                                    -$426                                                                                          Delta
                                       1Q        2Q        3 Q YE
                                                                4Q'01 1 Q                  2Q         YE '02
                                                                                                     3Q  4Q                1Q         2Q         3 QYE 4'03
                                                                                                                                                          Q          1Q
                                       01        01         01  01     02                  02        02   02               03         23          03    03           04
                                                                  Network Carriers                                            Low Cost Carriers


 Figure 24: Cost Per Available Seat-Mile (CASM)                                                                                                                              Figure 25: Domestic Air Fares for Eight Major Airlines
  1Q 2000 through 1Q 2004 (DOT Quarterly Domestic Data)                                                                                                1Q 04                 Average Fare for 1,000 Mile Trip, Excluding Taxes 2000, 2003 and
                                                                                                                                                     12.6 cents              Year-to-Date May 2004 (ATA Data)
                          14                           1Q 00                                                                                                                                                                                   May '04
                                                                                                                                                                                                 $180         May '00
                          13                         10.8 cents                                                                                                                                                                                 $116
                                                                                                                                                                                                               $147
                          12                                                                                                                                                                     $160

                          11                                                                                                                                                                     $140
                                                                                                                                                                                  Average Fare




                          10                                                                                                                                                                     $120
                  Cents




                           9                                                                                                                                                                     $100
                           8                                                                                                                                                                      $80                                         `
                           7                                                                                                                                                                      $60
                                                      1Q 00                                                                                                                                       $40
                           6                                                                                                          1Q 04
                                                     7.8 cents
                           5                                                                                                         7.6 cents                                                    $20
                           4                                                                                                                                                                       $0
                                                                                                                                                                                                               Feb




                                                                                                                                                                                                                                        May




                                                                                                                                                                                                                                                                       Aug
                                                                                                                                                                                                                                Apr




                                                                                                                                                                                                                                                                                              Nov
                                                                                                                                                                                                                        Mar




                                                                                                                                                                                                                                                                                Sep

                                                                                                                                                                                                                                                                                        Oct



                                                                                                                                                                                                                                                                                                     Dec
                                                                                                                                                                                                        Jan




                                                                                                                                                                                                                                                    Jun

                                                                                                                                                                                                                                                               Jul
                               00


                                                 00


                                                                   01


                                                                                   01


                                                                                                   02


                                                                                                                   02


                                                                                                                                    03


                                                                                                                                                     03


                                                                                                                                                                     04
                          1Q


                                                3Q


                                                              1Q


                                                                               3Q


                                                                                              1Q


                                                                                                              3Q


                                                                                                                              1Q


                                                                                                                                               3Q


                                                                                                                                                               1Q




                                                                      Network Carriers                             Low-Cost Carriers                                                                                 2000                             2003                               2004
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              21
                                                                                                                                                                                                                                        Airline Industry Metrics

Figure 26: Domestic Yield for Eight Major Airlines                                                                                                                                                                                                                   Percent
                                                                                                                                                                                                                                                                                                                   Figure 27: Business and Leisure Travel at the Five
Change in Airline Yield from 2000 (ATA Data)
                                                                                                                                                                                                                                                                                                                   Busiest U.S. Airports Passengers Using Business Fares as a Percent
                                 5%                                                                                                                                                                                                                                                                                of All Passengers 1Q 2000 through 4Q 2003 (BTS Data)

                                 0%                                                                                                                                                                                                                                                                                                 25%
                                                                                                                                                                                                                                                                                                                                          21%
                                 -5%                                                                                                                                                                                                                                                                                                                    19% 18%
        Percentage




                                                                                                                                                                                                                                                                                                                                    20%                                                     18%
                                                                                                                                                                                                                                                                                                                                                                         16%
                                -10%                                                                                                                                                                                                                                                                                                                                              14%
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       14% 14%




                                                                                                                                                                                                                                                                                                                     Percentage
                                                                                                                                                                                                                                                                                                                                    15%                                                                                     13% 13% 12% 12% 13%
                                                                                                                                                                                                                                                                                                                                                                                                     12% 12%                                                                                                  12%
                                -15%
                                                                                                                                                                                                                                                                                                                                    10%
                                -20%                                       March '01
                                                                                                                                                                                                                                   May '04
                                                                             -3%
                                                                                                                                                                                                                                    -21%                                                                                            5%
                                -25%
                                                                  Apr-01




                                                                                                                                             Apr-02




                                                                                                                                                                                                                      Apr-03




                                                                                                                                                                                                                                                                                                  Apr-04
                                                                                                        Oct-01




                                                                                                                                                                                 Oct-02




                                                                                                                                                                                                                                                          Oct-03
                                              Jan-01



                                                                                      Jul-01



                                                                                                                          Jan-02



                                                                                                                                                               Jul-02



                                                                                                                                                                                                   Jan-03



                                                                                                                                                                                                                                        Jul-03



                                                                                                                                                                                                                                                                              Jan-04
                                                                                                                                                                                                                                                                                                                                    0%




                                                                                                                                                                                                                                                                                                                                           1Q 00
                                                                                                                                                                                                                                                                                                                                                         2Q 00
                                                                                                                                                                                                                                                                                                                                                                 3Q 00
                                                                                                                                                                                                                                                                                                                                                                         4Q 00
                                                                                                                                                                                                                                                                                                                                                                                    1Q 01
                                                                                                                                                                                                                                                                                                                                                                                             2Q 01
                                                                                                                                                                                                                                                                                                                                                                                                          3Q 01
                                                                                                                                                                                                                                                                                                                                                                                                                  4Q 01
                                                                                                                                                                                                                                                                                                                                                                                                                                    1Q 02
                                                                                                                                                                                                                                                                                                                                                                                                                                            2Q 02
                                                                                                                                                                                                                                                                                                                                                                                                                                                            3Q 02
                                                                                                                                                                                                                                                                                                                                                                                                                                                                    4Q 02
                                                                                                                                                                                                                                                                                                                                                                                                                                                                               1Q 03
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        2Q 03
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      3Q 03
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              4Q 03
               Figure 28: Passenger Load Factors- Actual vs. Breakeven                                                                                                                                                                                                                                     Figure 29: Individual Airline Load Factors
               Percentages 1Q 2000 through 1Q 2004 (DOT Data)                                                                                                                                                                                                                                              Actual vs. Breakeven Percentages for Quarter Ending 3/31/04
                                                                                                                                                                                                                                                                                                           (DOT Data)
                                                                                                                                                                                                                                        Breakeven
                               100%                                                                                                                                                                                                        76%                                                                                    100%


                                80%                                                                                                                                                                                                                                                                                               80%
                                                                                                                                                                                                                                                                                                            Percentage




                                                                                                                                                                                                                                                                                                                                  60%
               Percentage




                                60%
                                                                                                                                                                                                                                                                                                                                  40%
                                                                                                                                                                                                                                             Actual
                                40%                                                                                                                                                                                                           72%
                                                                                                                                                                                                                                                                                                                                  20%

                                20%                                                                                                                                                                                                                                                                                                0%




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         US Airways
                                                                                                                                                                                                                                                                                                                                                                                 America



                                                                                                                                                                                                                                                                                                                                                                                                     American




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              Alaska
                                                                                                                                                                                                                                                                                                                                                                                                                          Continental
                                                                                                                                                                                                                                                                                                                                            Southwest




                                                                                                                                                                                                                                                                                                                                                                                                                                                Northwest
                                                                                                                                                                                                                                                                                                                                                                 Delta




                                                                                                                                                                                                                                                                                                                                                                                                                                                                      United
                                                                                                                                                                                                                                                                                                                                                                                  West




                                     0%
                                              1Q 00

                                                                2Q 00

                                                                              3Q 00

                                                                                               4Q 00

                                                                                                            1Q 01



                                                                                                                                            3Q 01

                                                                                                                                                         4Q 01

                                                                                                                                                                        1Q 02

                                                                                                                                                                                      2Q 02

                                                                                                                                                                                                     3Q 02

                                                                                                                                                                                                                      4Q 02

                                                                                                                                                                                                                                  1Q 03

                                                                                                                                                                                                                                                 2Q 03

                                                                                                                                                                                                                                                                   3Q 03

                                                                                                                                                                                                                                                                                 4Q 03

                                                                                                                                                                                                                                                                                                  1Q 04
                                                                                                                           2Q 01




                                                                                                                 Actual                                                                                                        Breakeven                                                                                                                                 Actual                                                                               Breakeven



                         Figure 30: Cost Per Gallon Domestic Jet Fuel
                         Jan 2001 through May 2004 (ATA Data)
                                                                                                                                                                                                                               May'04
                                                                                                                                                                                                                               $1.08
                             $1.20

                             $1.00
 Average cost $ per gallon




                             $0.80

                             $0.60
                                                                                                                                                June '03
                                                                                                                                                 $0.75
                             $0.40

                             $0.20

                             $0.00
                                                       Apr-01




                                                                                                                                   Apr-02




                                                                                                                                                                                                             Apr-03




                                                                                                                                                                                                                                                                                         Apr-04
                                                                                               Oct-01




                                                                                                                                                                        Oct-02




                                                                                                                                                                                                                                                 Oct-03
                                     Jan-01



                                                                           Jul-01



                                                                                                                 Jan-02



                                                                                                                                                      Jul-02



                                                                                                                                                                                          Jan-03



                                                                                                                                                                                                                               Jul-03



                                                                                                                                                                                                                                                                     Jan-04
                                                                                                                                                                                       22

                                                                               Airline Industry Metrics



    Figure 31 : Debt to Investment Ratio
    Airline Debt to Investment Ratiofor All Major Airlines
                                                                                                        Figure 32: Debt to Investment Ratio by Airline
                                                                                         ](?'04         Airline Debt to Investment Ratiofor Quarter Ending 3131104
    3Q 2000 through 1Q 2004 (DOT Data)
                                                                                          93%           (DOT Data)
            100%                                                                                                                                                                       198
                                                                                                          200%                                                              --
                         _ . _..   3Q '00
               90%
                                                                                                          175%
               80%
                                                                                                          150%
               70%
                                                                                                          125%                                                              108%
               60%                                                                                 y                                                          96%   102%
                                                                                                          100%                                         90%
               50%
                                                                                                   o.                              66% _. 71%
                                                                                                           75%               60%                                                   -

                                                                                                           50%
                                                                                                                   24%
               20%' ,                                                                                      25% -                                                                   -

               10% ' ,                                                                                      0

               0%                                                                                                                      v
                                                                                                                                       3
                                                                                                                       3     m     ~           3        ~      °     `°        °              I
                         O
                         0 O0 0 0 0 0 N0 N
                                         0 N
                                           0 N 0 M0 M
                                             0 M    0 M
                                                      0 -
                                                        0                                                                    ¢     a
                         a  a 0 01 0 0 0 0 a a 0  0 0 0 0
                         M a -. N M a -r N M a -, N M a -.
                                                                                                                       o
                                                                                                                                               z

Figure 33 : Airport and Airway Trust Fund
Estimated TrustFund Receipts as of 8/04 vs. Pre-9/11 (FAA Data)                                   Figure 34: Non-Hub vs. Larger Airports
                                                                                                  Percent Change in Scheduled Available Seatsfrom 1998 (FAA Data)

                                                                                          17 .4           20%                                                                LargerAirports
         $18                                                                 16 .3
                                             - 14 .5 -       15 .4                                                                                                              May+3%
         $16              --
                                      13.7                                                                10%      -
         $14             12.9
                                                         11 .4
                                                                     .12.1            12 .7
                                                                                                           0%
                                                                                                                             r.                                                         v
         $12                        .,
    ao                                                                                                   _10%
         $10                                                                                        r
   CG     $8                                                                                       .0
          $6                                                                                                                                                               Non-Hub
                                                                                                         -30%                           ------- -                           Airports
          $4                                                                                                                                                               May-18%
                                .                                                                        -40%
                                                                                                                 a a a o $ °0              0       0   0     0 0 c 0 0 0
          $0 ,       -

                 FY 03             FY 04     FY OS        FY 06       FY 07            FY 08

                           "August 2004                   ®Pre-September 11                                                -Non-Hub Airports                  -Larger Airports




                                                                                                    Figure 36: Access to Large Airports
Figure 35 : Regional Differences at Non-Hubs                                                        Percent Change in Number of Scheduled Flights 5/04 vs. 5100
Percent Change in Available Seats at Non-Hub Airports 5/04 vs. 5/00
                                                                                                    (FAA Data)
(FAA Data)
                                                Midwest                                                     5%
                                                   25~
   West                                                                                                     0%
   -14%                                                   1       Northeast
          H                                                         -37%                                   _5°,°

                                                                                                   u      _10%             -7%

                                                                                                          -150,°

                                                                                     South
                                                                                                          -20%
                                                                                      14~
                                                                                                                                                                               -21
                                                                      m                                   -25%
                                                                                                                   Large to Large Medium to Large Small to Large            Non-Hub to
                                                                                                                                                                              Large
                                     National Average
                                                                                                                                                                                      23


                                                                       Airline Industry Metrics

Figure 37: Type of Aircraft at Non-Hub Airports                                                                 Figure 38: Airline Market Share at Non-Hubs
Percent Change in Scheduled Flights by Type of Aircraft 5/04 vs. 5/00                                           Airline Market Share by Available Seats at Non-Hub Airports
(FAA Data)                                                                                                      (FAA Data)

                200%                                                                                                100%
                                                                             146%                                                                                     80%            82%
                                                                                                                                 77%         77%         79%
                150%
                                                                                                                    75%




                                                                                                       Percentage
                100%
  Percentage




                                                                                                                    50%
                      50%

                      0%                                                                                                   21%         20%         18%
                                                                                                                    25%                                         16%           15%
                                                           -18%                                                              2%          3%           3%           3%            3%
                  -50%        -38%          -37%
                                                                                                                     0%
               -100%                                                                                                         5/00        5/01         5/02         5/03          5/04
                             Large Jets   Turboprop        Piston        Regional Jets
                                                                                                                                       Network       Low-Cost           All Others



        Figure 39: Essential Air Service
        Congressional Funding and Subsidized Communities (DOT Data)

                      $140                                                     160

                      $120                                                     140
                                                                               120
                                                                                     EAS Communities




                      $100
     Appropriations




                                                                               100
      ($ Millions)




                       $80
                                                                               80
                       $60                                               ?
                                                                               60
                       $40
                                                                               40
                       $20                                                     20
                        $0                                                     0
                             FY 99 FY 00 FY 01 FY 02 FY 03 FY 04 FY 05*
                                                      Appropriations
*President's proposed FY '05 budget.
                                                      Subsidized Communities
                                                                                                      


(;+,%,7 % 6&23( $1' 0(7+2'2/2*<

'DWD UHSUHVHQWHG JUDSKLFDOO\ LQ WKH UHSRUW ZHUH FROOHFWHG IURP WKH IROORZLQJ
SULPDU\ VRXUFHV WKH $LU 7UDQVSRUW $VVRFLDWLRQ $7$ WKH )HGHUDO $YLDWLRQ
$GPLQLVWUDWLRQ )$$ WKH %XUHDX RI 7UDQVSRUWDWLRQ 6WDWLVWLFV %76 DQG WKH
2IILFH RI $YLDWLRQ $QDO\VLV 2$$ 7KH $7$ LV D WUDGH DVVRFLDWLRQ RI 86
FHUWLILFDWHG DLU FDUULHUV )$$ %76 DQG 2$$ DUH RUJDQL]DWLRQV ZLWKLQ WKH
'HSDUWPHQW RI 7UDQVSRUWDWLRQ 7KHVH VRXUFHV ZHUH XVHG WR SHUIRUP WKH DQDO\VHV
GHWDLOHG EHORZ

:H QRWH WKDW ZH GLG QRW V\VWHPDWLFDOO\ DXGLW RU YDOLGDWH WKH GDWD FRQWDLQHG LQ DQ\
RI WKH GDWDEDVHV +RZHYHU ZH FRQGXFWHG WUHQG DQDO\VHV DQG VSRUDGLF FKHFNV RI
WKH GDWD WR DVVHVV UHDVRQDEOHQHVV DQG FRPSUHKHQVLYHQHVV :KHQ RXU MXGJPHQWDO
VDPSOLQJ LGHQWLILHG DQRPDOLHV RU DSSDUHQW OLPLWDWLRQV LQ WKH GDWD ZH KHOG
GLVFXVVLRQV ZLWK PDQDJHUV UHVSRQVLEOH IRU PDLQWDLQLQJ WKH GDWDEDVHV WR XQGHUVWDQG
DQG DWWHPSW WR UHVROYH WKH LQFRQVLVWHQFLHV &RQVHTXHQWO\ ZH GLG QRW SHUIRUP
VXIILFLHQW WHVWV WR GUDZ FRQFOXVLRQV RU IRUP DQ RSLQLRQ RQ WKH FRPSOHWHQHVV RU
DFFXUDF\ RI WKH GDWD VRXUFHV

:H PHW SHULRGLFDOO\ ZLWK VWDII IURP $7$ )$$ %76 DQG 2$$ WR GLVFXVV GDWD
LVVXHV DQG REWDLQ IHHGEDFN RQ PRGLILFDWLRQV ZH PDGH WR H[LVWLQJ GDWD LQ RUGHU WR
PRUH DFFXUDWHO\ UHSUHVHQW LQGXVWU\ WUHQGV )RU H[DPSOH ZH SURSRVHG D GHILQLWLRQ
RI D UHJLRQDO MHW EDVHG RQ VL]H RSHUDWLRQDO DQG RZQHUVKLS FULWHULD WKDW GLIIHUV IURP
WKRVH XVHG E\ RWKHU LQGXVWU\ DQG JRYHUQPHQW HQWLWLHV :H VRXJKW IHHGEDFN RQ WKH
GHILQLWLRQ DQG DGMXVWHG GDWD VHWV WR UHIOHFW RXU UHYLVHG GHILQLWLRQ ,Q DGGLWLRQ ZH
DOVR UHFODVVLILHG RXU VHW RI ORZFRVW FDUULHUV WR HOLPLQDWH ZKROO\RZQHG RSHUDWLQJ
XQLWV ³6RQJ´ E\ 'HOWD DQG ³7HG´ E\ 8QLWHG DQG LQFOXGH $PHULFD :HVW $LUOLQHV
ZKRVH FRVWV SHU DYDLODEOH VHDW PLOH DUH FRQVLVWHQW ZLWK RWKHU ORZFRVW FDUULHUV ,Q
RXU SULRU UHSRUWV RQ LQGXVWU\ FRQGLWLRQV ZH LQFOXGHG $PHULFD :HVW $LUOLQHV DV D
QHWZRUN FDUULHU

$ $QDO\VLV 3HUIRUPHG :LWK $7$ 'DWD

)LQDQFLDO WUDIILF DQG RSHUDWLRQDO VWDWLVWLFV REWDLQHG IURP $7$ VRXUFHV ZHUH XVHG
LQ ILQDQFLDO DQG VWDWLVWLFDO DQDO\VLV RI KLVWRU\ WUHQGV VWDWXV DQG SHUIRUPDQFH RI
DLUOLQH FDSDFLW\ WUDIILF IXHO H[SHQVH DQG XQLW UHYHQXHV

      $7$ 0RQWKO\ 7UDIILF 5HSRUW $ FROOHFWLRQ RI FXUUHQW DQG KLVWRULF DLUOLQH
        WUDIILF DQG FDSDFLW\ VWDWLVWLFV 6FRSH PHPEHU DLUOLQHV RI WKH $7$ 
        WKURXJK 0D\ 

     'DWD IRU ³'RPHVWLF 3DVVHQJHU (QSODQHPHQWV´ )LJXUH  DQG ³'RPHVWLF 3DVVHQJHU &DSDFLW\ YV
     'HPDQG´ )LJXUH  LQFOXGHV WKH IROORZLQJ DLU FDUULHUV $ODVND $LUOLQHV $ORKD $LUOLQHV $PHULFD :HVW


(;+,%,7 % 6FRSH DQG 0HWKRGRORJ\
                                                                                                        


      $7$ 0RQWKO\ 3DVVHQJHU <LHOG 5HSRUW $ FROOHFWLRQ RI FXUUHQW DQG KLVWRULF
        DLUOLQH \LHOG VWDWLVWLFV SDVVHQJHU UHYHQXH SHU UHYHQXH SDVVHQJHUPLOH
        6FRSH VHOHFWHG PHPEHU DLUOLQHV RI WKH $7$  WKURXJK 0D\ 

      $7$ 0RQWKO\ )XHO 5HSRUW $ UHSXEOLFDWLRQ RI PRQWKO\ DLUOLQH IXHO
        FRQVXPSWLRQ DQG FRVW GDWD FROOHFWHG DQG UHSRUWHG E\ %76 6FRSH DOO 86
        FHUWLILFDWHG DLUOLQHV UHTXLUHG WR UHSRUW IXHO FRVW DQG FRQVXPSWLRQ UHSRUWV
        '27 )RUP  6FKHGXOH 3  WKURXJK 0D\ 

% $QDO\VLV 3HUIRUPHG :LWK %76 'DWD

)LQDQFLDO WUDIILF RSHUDWLRQDO VWDWLVWLFV DQG SDVVHQJHU WLFNHW VXUYH\ LQIRUPDWLRQ
REWDLQHG IURP %76 VRXUFHV ZHUH XVHG LQ ILQDQFLDO DQG VWDWLVWLFDO DQDO\VLV RI
KLVWRU\ WUHQGV VWDWXV DQG SHUIRUPDQFH RI ILQDQFLDO FRQGLWLRQ QHW SURILWV DQG
ORVVHV GHEW DQG LQYHVWPHQW ORDG IDFWRUV DQG EXVLQHVV DQG OHLVXUH WUDYHO
FKDUDFWHULVWLFV

      $LU &DUULHU )LQDQFLDO 6WDWLVWLFV $ FRPSLODWLRQ RI ILQDQFLDO UHSRUWV
        VXEPLWWHG E\ DLU FDUULHUV DV UHTXLUHG XQGHU 7LWOH  &RGH RI )HGHUDO
        5HJXODWLRQV &)5 3DUW  )RUP  DQG DFFHVVLEOH WKURXJK WKH %76
        7UDQ6WDWV ZHEVLWH KWWSZZZWUDQVWDWVEWVJRY DQG WKURXJK KDUGFRS\ LQ
        WKH SXEOLF UHIHUHQFH URRP RI WKH 2IILFH RI $LUOLQH ,QIRUPDWLRQ 6FRSH DOO
        FHUWLILFDWHG 86 DLU FDUULHUV  WKURXJK WKH TXDUWHU HQGHG 0DUFK 
        

      $LU &DUULHU 7UDIILF 6WDWLVWLFV &RPSLODWLRQ RI WUDIILF DQG FDSDFLW\ UHSRUWV
        VXEPLWWHG E\ DLU FDUULHUV DV UHTXLUHG XQGHU  &)5 3DUW  )RUP  DQG
        DFFHVVLEOH WKURXJK WKH %76 7UDQ6WDWV ZHEVLWH 6FRSH DOO FHUWLILFDWHG
        86 DLU FDUULHUV  WKURXJK 0DUFK 

      2ULJLQ DQG 'HVWLQDWLRQ 6XUYH\ RI 3DVVHQJHU 7UDYHO 2 ' 6XUYH\
        &RPSLODWLRQ RI VXUYH\HG WLFNHW LQIRUPDWLRQ VXEPLWWHG TXDUWHUO\ DV UHTXLUHG
        XQGHU  &)5 3DUW  )RUP  DQG DFFHVVLEOH WKURXJK WKH %76


     $LUOLQHV $PHULFDQ $LUOLQHV $7$ $PHULFDQ 7UDQV $LU &RQWLQHQWDO $LUOLQHV LQFOXGLQJ 0LFURQHVLD
     'HOWD $LUOLQHV +DZDLLDQ $LUOLQHV -HW%OXH 0LGZHVW $LUOLQHV 1RUWKZHVW $LUOLQHV 6RXWKZHVW $LUOLQHV
     8QLWHG $LUOLQHV DQG 86 $LUZD\V

     'DWD IRU ³'RPHVWLF $LU )DUHV IRU (LJKW 0DMRU $LUOLQHV´ )LJXUH  DQG ³'RPHVWLF <LHOG IRU (LJKW
     0DMRU $LUOLQHV´ )LJXUH  LQFOXGH WKH IROORZLQJ PDMRU DLU FDUULHUV $ODVND $LUOLQHV $PHULFDQ :HVW
     $LUOLQHV $PHULFDQ $LUOLQHV &RQWLQHQWDO $LUOLQHV 'HOWD $LUOLQHV 1RUWKZHVW $LUOLQHV 8QLWHG $LUOLQHV
     DQG 86 $LUZD\V

     'DWD IRU ³&RVW SHU *DOORQ 'RPHVWLF -HW )XHO´ )LJXUH  LQFOXGH DOO PDMRU QDWLRQDO DQG ODUJH
     UHJLRQDO 86 DLUOLQHV WKDW UHSRUW WR '27

(;+,%,7 % 6FRSH DQG 0HWKRGRORJ\
                                                                                 

      7UDQ6WDWV ZHEVLWH 6FRSH SHUFHQW VDPSOH RI WLFNHWV XVHG E\
      SDVVHQJHUV  WKURXJK WKH IRXUWK TXDUWHU 

& $QDO\VLV 3HUIRUPHG :LWK '272$$ 'DWD

)LQDQFLDO WUDIILF DQG RSHUDWLRQDO VWDWLVWLFV REWDLQHG IURP '27 VRXUFHV ZHUH XVHG
LQ ILQDQFLDO DQG VWDWLVWLFDO DQDO\VLV RI KLVWRU\ WUHQGV VWDWXV DQG SHUIRUPDQFH RI
DLUOLQH UHYHQXHV H[SHQVHV SURILWV WUDIILF DQG FDSDFLW\ DQG RI WKH (VVHQWLDO $LU
6HUYLFH 3URJUDP

    $LUOLQHV 4XDUWHUO\ )LQDQFLDO 5HYLHZ $ TXDUWHUO\ UHSRUW DQDO\]LQJ WKH
      ILQDQFLDO DQG RSHUDWLQJ SHUIRUPDQFH DQG FRQGLWLRQ RI WKH PDMRU DLUOLQHV LQ
      WKH 86 3UHSDUHG XVLQJ ILQDQFLDO DQG WUDIILF VWDWLVWLFV UHSRUWHG WR %76 E\
      WKH DLUOLQHV 6FRSH  PDMRU DLU FDUULHUV  SDVVHQJHU DQG  DOOFDUJR
      FDUULHUV VHFRQG TXDUWHU  WKURXJK WKH ILUVW TXDUWHU 

    (VVHQWLDO $LU 6HUYLFH 3URJUDP ($6    ,QIRUPDWLRQ RQ ($6 EXGJHWV DQG
      QXPEHU RI FRPPXQLWLHV VHUYHG ZDV VXSSOLHG WR WKH 2,* E\ ($6 SURJUDP
      DGPLQLVWUDWRUV 6FRSH EXGJHW DQG SURJUDP DFWLYLW\ IRU )LVFDO <HDUV 
      WKURXJK  DV ZHOO DV WKH $GPLQLVWUDWLRQ¶V EXGJHW SURSRVDO IRU )LVFDO
      <HDU 

' $QDO\VLV 3HUIRUPHG :LWK )$$ 'DWD

$LU 7UDIILF &RQWURO $7& GHOD\ DQG RSHUDWLRQDO VWDWLVWLFV DV ZHOO DV DLUOLQH IOLJKW
VFKHGXOH GDWD REWDLQHG IURP )$$ VRXUFHV ZHUH XVHG LQ VWDWLVWLFDO DQDO\VLV RI
KLVWRU\ WUHQGV VWDWXV DQG SHUIRUPDQFH RI DLU WUDIILF FRQWURO PDQDJHPHQW DQG
GHOD\V DLUOLQH VFKHGXOHG FDSDFLW\ RSHUDWLRQV DQG PDUNHW VKDUH DLUFUDIW W\SH
XVDJH DQG WKH $YLDWLRQ $LUSRUW DQG $LUZD\ 7UXVW )XQG

    )OLJKW 6FKHGXOH 'DWD 6\VWHP )6'6 $ GDWDEDVH RI SXEOLVKHG DLUOLQH IOLJKW
      VFKHGXOHV 6FRSH ZRUOGZLGH  WKURXJK 0D\ 

    $YLDWLRQ 6\VWHP 3HUIRUPDQFH 0HWULFV $630 $ GDWDEDVH RI )$$ DLU
      WUDIILF FRQWURO SHUIRUPDQFH PHDVXUHV LQFOXGLQJ GHOD\V FDQFHOODWLRQV
      RSHUDWLRQV DQG FDXVHV IRU GHOD\V 6FRSH  PDMRU DLUSRUWV DFURVV WKH
      FRXQWU\ DQG DOO HQURXWH FRQWURO FHQWHUV  WKURXJK 0D\  DQG
      SUHOLPLQDU\ GDWD IRU -XQH 

    2SHUDWLRQV 1HW 2361(7 ± &HQWHU $ GDWDEDVH RI HQURXWH DLU WUDIILF
      FRQWURO FHQWHU DLUFUDIW PRYHPHQW RSHUDWLRQV KDQGOHG E\ WKH YDULRXV HQURXWH
      DLU WUDIILF FRQWURO FHQWHUV 6FRSH  HQURXWH DLU WUDIILF FRQWURO FHQWHUV
       WKURXJK 0D\ 

(;+,%,7 % 6FRSH DQG 0HWKRGRORJ\
                                                                                  


    $YLDWLRQ $LUSRUW DQG $LUZD\ 7UXVW )XQG $FWXDO DQG HVWLPDWHG UHYHQXHV
      IRU WKH WUXVW IXQG ZHUH REWDLQHG E\ 2,* VWDII IURP WKH )$$
      6FRSH UHYHQXH HVWLPDWHV SUHSDUHG LQ $SULO  LH SUH6HSWHPEHU 
       DQG LQ $XJXVW  DFWXDO UHYHQXHV IRU )LVFDO <HDU 

7HUPV DQG 'HILQLWLRQV IRU WKH &XUUHQW 5HSRUW

+XE DLUSRUW ± $ UDQNLQJ GHVLJQDWLRQ RI 86 DLUSRUWV E\ WKH )$$ EDVHG RQ WKH
DLUSRUW¶V SHUFHQWDJH VKDUH RI WRWDO SDVVHQJHU HQSODQHPHQWV DW DOO 86 DLUSRUWV
7KH )$$ FDWHJRUL]HV DLUSRUWV EDVHG RQ WKH IROORZLQJ FULWHULD

       3HUFHQWDJH RI $QQXDO 3DVVHQJHU (QSODQHPHQWV LQ WKH 86 E\ +XE 7\SH

       /DUJH +XE         RU PRUH RI WRWDO HQSODQHPHQWV
       0HGLXP +XE       DW OHDVW   EXW OHVV WKDQ 
       6PDOO +XE        DW OHDVW   EXW OHVV WKDQ 
       1RQKXE          DW OHDVW  EXW OHVV WKDQ 

/DUJH MHW ± )RU WKH SXUSRVHV RI WKH DLUOLQH PHWULFV UHSRUW ODUJH MHWV DUH DOO
FRPPHUFLDOO\ RSHUDWHG MHW WUDQVSRUW DLUFUDIW RWKHU WKDQ WKRVH GHILQHG DV UHJLRQDO
MHWV

/RZFRVW FDUULHU ± )RU WKH SXUSRVHV RI WKH DLUOLQH PHWULFV UHSRUW WKH FDWHJRU\
ORZFRVW FDUULHU LQFOXGHV $LU7UDQ $PHULFD :HVW $PHULFDQ 7UDQV $LU $7$
)URQWLHU $LUOLQHV -HW%OXH $LUZD\V 1DWLRQDO $LUOLQHV 3DQ $PHULFDQ $LUZD\V
6RXWKZHVW $LUOLQHV 6SLULW $LUOLQHV 6XQ &RXQWU\ DQG 9DQJXDUG $LUOLQHV
+RZHYHU 9DQJXDUG $LUOLQHV DQG 1DWLRQDO $LUOLQHV FHDVHG RSHUDWLRQV LQ -XO\ 
DQG 1RYHPEHU  UHVSHFWLYHO\

0DMRU SDVVHQJHU DLUOLQH ± )RU WKH SXUSRVHV RI WKH DLUOLQH PHWULFV UHSRUW WKH
FDWHJRU\ PDMRU SDVVHQJHU DLUOLQH LQFOXGHV $ODVND $LUOLQHV $PHULFD :HVW
$LUOLQHV $PHULFDQ $LUOLQHV $PHULFDQ (DJOH $LUOLQHV &RQWLQHQWDO $LUOLQHV 'HOWD
$LU /LQHV 1RUWKZHVW $LUOLQHV 6RXWKZHVW $LUOLQHV 8QLWHG $LUOLQHV DQG 86
$LUZD\V

1HWZRUN DLUOLQH ± )RU WKH SXUSRVHV RI WKH DLUOLQH PHWULFV UHSRUW WKH FDWHJRU\
QHWZRUN DLUOLQH LQFOXGHV $ODVND $LUOLQHV $PHULFDQ $LUOLQHV &RQWLQHQWDO
$LUOLQHV 'HOWD $LU /LQHV 1RUWKZHVW $LUOLQHV 8QLWHG $LUOLQHV DQG 86 $LUZD\V
)RU WKH SXUSRVHV RI FRQVLVWHQF\ RYHU WLPH WKH ILQDQFLDO DQG RSHUDWLQJ VWDWLVWLFV IRU
WKH IRUPHU 7UDQV :RUOG $LUOLQHV KDYH EHHQ PHUJHG ZLWK WKRVH RI WKH DFTXLUHU
$PHULFDQ $LUOLQHV


(;+,%,7 % 6FRSH DQG 0HWKRGRORJ\
                                                                                 

2WKHU DLUOLQHV ± )RU WKH SXUSRVHV RI WKH DLUOLQH PHWULFV UHSRUW WKH FDWHJRU\ RWKHU
DLUOLQHV LQFOXGHV DOO VFKHGXOHG 86 DLUOLQHV QRW LQFOXGHG LQ WKH QHWZRUN DQG
ORZFRVW FDWHJRULHV PRVWO\ VPDOOHU VFKHGXOHG UHJLRQDO FRPPXWHU DQG QDWLRQDO
DLUOLQHV PDQ\ RI ZKLFK DUH DIILOLDWHG ZLWK WKH PDMRU QHWZRUN FDUULHUV

5HJLRQDO FDUULHU ± :H GHILQH D UHJLRQDO FDUULHU DV DQ HQWLW\ ZKRVH IOHHW LV
SULQFLSDOO\ FRPSULVHG RI DLUFUDIW FRQILJXUHG ZLWK IHZHU WKDQ  VHDWV RSHUDWHG
ZLWKLQ D OLPLWHG JHRJUDSKLF VFRSH PD\ KDYH PXOWLSOH UHJLRQV WKRXJK QRW
LQWHUOLQNHG DFURVV WKH FRXQWU\ XQGHU LWV RZQ VLQJOH EUDQG SULQFLSDOO\ VHUYHV KXE
DQGVSRNH QHWZRUNV DQG FRQGXFWV PRVW RI LWV RSHUDWLRQV XQGHU WKH DIILOLDWLRQV RI
ODUJHU EUDQGHG DLUOLQHV QHWZRUN FDUULHUV )RU WKH SXUSRVHV RI WKLV UHSRUW ZH DOVR
FRQVLGHU LQWHUQDO PDLQOLQH RSHUDWLQJ XQLWV WKDW DUH SULQFLSDOO\ LQYROYHG LQ UHJLRQDO
RSHUDWLRQV DV UHJLRQDO FDUULHUV

5HJLRQDO MHW 5- ± $OO WXUERIDQ MHWSRZHUHG DLUFUDIW FRQILJXUHG WR VHDW  RU IHZHU
SDVVHQJHUV RSHUDWHG E\ HLWKHU D UHJLRQDO RU QHWZRUN FDUULHU DQG DOO WXUERIDQ MHW
SRZHUHG DLUFUDIW FRQILJXUHG WR VHDW EHWZHHQ  DQG  SDVVHQJHUV DQG RSHUDWHG
E\ UHJLRQDO FDUULHUV




(;+,%,7 % 6FRSH DQG 0HWKRGRORJ\
                                                                                 




(;+,%,7 & 0$-25 &2175,%87256 72 7+,6
5(3257
7+( )2//2:,1* ,1',9,'8$/6 &2175,%87(' 72 7+,6 5(3257


   1DPH                                        7LWOH

   0DUN 5 'D\WRQ                              $VVLVWDQW ,QVSHFWRU *HQHUDO
                                               IRU &RPSHWLWLRQ DQG (FRQRPLF
                                               $QDO\VLV

   6WXDUW $ 0HW]JHU                           3URJUDP 'LUHFWRU

   /HLOD ' .DKQ                               3URMHFW 0DQDJHU

   $QJHOLD &ROOLHU                             6HQLRU $QDO\VW

   0LFKDHO 3 'XQQ                             $XGLWRU

   5DOSK : 0RUULV                             (FRQRPLVW

   6WHSKHQ * 6PLWK                            7UDQVSRUWDWLRQ ,QGXVWU\ $QDO\VW




(;+,%,7 & 0DMRU &RQWULEXWRUV WR 7KLV 5HSRUW
The following pages contain textual versions of the graphs and charts found in
this document. These pages were not part of the original document but have
been added here to accommodate assistive technology.



Chart A: Percent Change in Scheduled Domestic Flights
Between January 2000 and May 2004 (Base Year 1999)

                   2000         2001       2002        2003      2004
                 (Percent     (Percent   (Percent   (Percent   (Percent
   Month
                  Change       Change     Change     Change     Change
                from 1999)   from 1999) from 1999) from 1999) from 1999)
January             4%           7%         -7%        -7%       -5%
February            7%           4%         -8%        -9%       -2%
March               3%           2%         -9%       -10%       -6%
April               2%           3%         -7%        -9%       -6%
May                 3%           3%         -6%       -11%       -6%
June               2%            2%         -7%       -10%
July               1%            2%         -6%        -9%
August             1%            1%         -6%        -9%
September           1%           -1%        -9%       -10%
October             3%           -2%        -9%        -8%
November            1%          -14%       -11%        -9%
December           0%           -15%       -12%        -8%

Note:   January 2001 Start of 3 Quarters of Negative Gross Domestic Product
Note:   March 2001 Business Travel Begins to Decline
Note:   September 2001 9/11 Terrorist Attacks
Note:   December 2001 Flight Schedules Reach Lowest Point Down 15%
Note:   April 2003 Iraq War and Severe Acute Respiratory Syndrome
Note:   July 2003 Flight Schedules Down 9% to 11% During Summer 2003
Note:   May 2004 Flight Schedules Down 6%
Note:   Source: FAA Data




Published Metrics Report (508 Compl) 8-10-04
08/11/2004
Chart B: Number of Flights with Arrival Delays
June 2000 through June 2004

    June         June
                              June         June        June
    2000         2001
                              2002         2003        2004
200,301        152,162       127,174      113,408     178,973

2004          2004
(Percent       (Percent
Change          Change
from 2000)    from 2003)
-11%             58%

Figure 1: Domestic Passenger Enplanements
Percent Change in Revenue Passenger Enplanements from 2000
(ATA Data)
                   2001              2002             2003          2004
                 (Percent         (Percent         (Percent       (Percent
   Month
               Change from      Change from      Change from    Change from
                  2000)            2000)            2000)          2000)
January              4%             -10%              -8%           -10%
February            -3%             -15%             -16%           -12%
March               -2%            -12%              -16%           -13%
April                0%            -13%             -18%            -10%
May                 -2%            -13%             -17%            -13%
June                -2%             -13%             -16%        Not Given
July                 0%            -11%             -11%         Not Given
August               3%              -8%             -13%        Not Given
September          -34%             -16%             -17%        Not Given
October            -22%             -14%             -14%        Not Given
November          -19%              -18%             -17%        Not Given
December          -14%               -4%              -8%        Not Given

Note: September 2001 Enplanements Down 34 Percent
Note: May 2004 Enplanements Down 13 Percent




Published Metrics Report (508 Compl) 8-10-04
08/11/2004
Figure 2: Domestic Capacity versus Demand
Percent Change in Available Seat Miles versus Revenue Passenger
Miles from 2000 (ATA Data)
                    2001          2002            2003        2004
                 Change in     Change in       Change in    Change in
    Month
                 Available     Available       Available    Available
                 Seat Miles    Seat Miles      Seat Miles   Seat Miles
January              5%           -8%             -6%          -5%
February            -1%          -12%            -14%          -5%
March                0%           -9%            -10%          -5%
April                2%           -7%            -11%          -4%
May                  3%           -6%            -12%          -5%
June                 3%           -4%             -9%       Not Given
July                 4%           -3%             -8%       Not Given
August               4%           -4%             -9%       Not Given
September          -19%           -8%            -11%       Not Given
October            -15%           -9%            -11%       Not Given
November           -14%          -10%            -10%       Not Given
December           -10%           -6%             -6%       Not Given

                    2001          2002            2003        2004
                 Change in     Change in       Change in    Change in
    Month         Revenue       Revenue         Revenue      Revenue
                 Passenger     Passenger       Passenger    Passenger
                   Miles         Miles           Miles        Miles
January              6%           -7%             -1%          0%
February            -2%          -11%            -11%         -2%
March                0%           -7%            -10%         -3%
April                0%          -10%            -12%          0%
May                 -2%           -9%            -11%         -3%
June                -1%           -8%             -9%       Not Given
July                 1%           -6%             -4%       Not Given
August               4%           -4%             -5%       Not Given
September          -32%          -12%            -10%       Not Given
October            -20%          -10%             -7%       Not Given
November           -17%          -14%            -10%       Not Given
December           -12%            0%              0%       Not Given

Note: May 2004 Revenue Passenger Miles Down 3 Percent
Note: May 2004 Available Seat Miles Down 5 Percent

Published Metrics Report (508 Compl) 8-10-04
08/11/2004
Figure 3: Actual Flight Operations
Percent Change in Air Route Traffic Control Center Operations
from 2000 (FAA Data)

                    2001              2002              2003            2004
   Month       Percent Change    Percent Change   Percent Change   Percent Change
                in Operations     in Operations    in Operations    in Operations
January              5%               -3%               0%               2%
March                -4%              -8%              -10%              0%
March                -2%              -7%               -7%              1%
April                 0%              -3%               -5%              3%
May                  -1%              -4%               -7%             -1%
June                 -3%              -4%               -6%           Not Given
July                  1%              -1%               -2%           Not Given
August                0%              -4%               -6%           Not Given
September           -16%              -5%               -5%           Not Given
October              -8%              -4%               -3%           Not Given
November             -8%              -7%               -4%           Not Given
December             -5%              -1%                3%           Not Given

Note: September 2001 Actual Flight Operations Down 16 Percent
Note: May 2004 Actual Flight Operations Down 1 Percent

Figure 4: Nine Major Airlines Reported Arrivals
Percent Change in Actual Arrivals by Airline May 2004 versus May 2000 (FAA
Data 32 major airports)

                       2004
                    Percentage
     Airline         Change
Alaska                 19%
Southwest              12%
America West           -1%
Northwest              -4%
Delta                 -18%
Continental           -19%
United                -22%
American              -26%
US Airways            -40%


Published Metrics Report (508 Compl) 8-10-04
08/11/2004
Figure 5: Domestic Scheduled Capacity
Percent Change in Scheduled Flights and Available Seats at
All Airports from 2000 (FAA Data)
                       Percent       Percent
      Month           Change in     Change in
                       Flights        Seats
January 2001              2%            3%
February 2001            -3%           -2%
March 2001               -1%           1%
April 2001                1%            1%
May 2001                  0%            1%
June 2001                0%            1%
July 2001                 1%           2%
August 2001              0%            1%
September 2001           -1%            0%
October 2001             -5%           -4%
November 2001           -15%          -15%
December 2001           -14%          -14%
January 2002            -11%          -10%
February 2002           -14%          -13%
March 2002              -11%          -10%
April 2002               -9%           -8%
May 2002                 -9%           -8%
June 2002                -9%           -7%
July 2002                -7%           -6%
August 2002              -8%           -7%
September 2002          -10%          -10%
October 2002            -11%          -11%
November 2002           -12%          -12%
December 2002           -12%          -12%
January 2003            -11%          -11%
February 2003           -15%          -15%
March 2003              -12%          -12%
April 2003              -11%          -12%
May 2003                -14%          -15%
June 2003               -11%          -13%
July 2003                -9%          -11%
August 2003             -10%          -13%
September 2003          -10%          -13%
Published Metrics Report (508 Compl) 8-10-04
08/11/2004
October 2003            -10%          -13%
November 2003           -11%          -13%
December 2003            -8%          -11%
January 2004             -9%          -10%
February 2004            -9%          -10%
March 2004               -9%          -10%
April 2004               -9%          -10%
May 2004                 -8%          -10%

Figure 6: Regional Differences at All Airports
Percent Change in Available Seats at All Airports May 2004 versus May 2000 (FAA
Data)
                                                         Percent Change
                         Region                           in Available
                                                              Seats
Northeast (includes Connecticut, Maine, Massachusetts,
New Hampshire, New Jersey, New York, Pennsylvania,            -14%
Rhode Island, Vermont)
Midwest (includes Illinois, Indiana, Iowa, Kansas,
Michigan, Minnesota, Missouri, Nebraska, North Dakota,        -14%
Ohio, South Dakota, Wisconsin)
West (includes Alaska, Arizona, California, Colorado,
Hawaii, Idaho, Montana, Nevada, New Mexico, Oregon,            -9%
Utah, Washington, Wyoming)
South (includes Alabama, Arkansas, Delaware, Florida,
Georgia, Kentucky, Louisiana, Maryland, Mississippi,
                                                               -6%
North Carolina, Oklahoma, South Carolina, Tennessee,
Texas, Virginia, West Virginia)
National Average                                              -10%




Published Metrics Report (508 Compl) 8-10-04
08/11/2004
Figure 7: Change in Capacity at Large Airports
Percent Change in Scheduled Flights and Available Seats at the
31 Largest Airports May 2004 versus May 2000 (FAA Data)

 Largest Airports     Percent Change           Percent Change in
                         in Flights             Available Seats
Fort Lauderdale             16%                       33%
Kennedy                    -27%                       16%
Las Vegas                    6%                       10%
Baltimore                   -7%                        5%
Atlanta                      7%                        2%
Orlando                     -9%                        1%
Houston                      5%                       -1%
Denver                      10%                       -1%
Tampa                      -14%                       -2%
San Diego                   -1%                       -2%
Minneapolis                 5%                        -2%
Phoenix                     -7%                       -4%
Cincinnati                  12%                       -4%
Chicago O’Hare              10%                       -5%
Detroit                      3%                       -6%
Salt Lake City              20%                       -7%
LaGuardia                   7%                        -7%
Seattle                    -16%                       -7%
Philadelphia                -6%                       -7%
Dallas-Ft. Worth            -2%                       -8%
Charlotte                   -2%                       -8%
Reagan National              1%                       13%
Miami                      -24%                      -18%
Newark                      -9%                      -19%
Boston                     -26%                      -20%
Los Angeles                -21%                      -21%
Dulles                     -36%                      -23%
Honolulu                   -22%                      -27%
San Francisco              -25%                      -27%
Pittsburgh                 -25%                      -37%
St. Louis                  -45%                      -61%




Published Metrics Report (508 Compl) 8-10-04
08/11/2004
Figure 8: Length of Flight
Percent Change in Scheduled Flights by Length of Flight
May 2004 versus May 2000 (FAA Data)

                                    2004
   Range in Miles             Percent Change
                                 in Flights
0 to 249 miles                    -27%
250 to 499 miles                  -10%
500 to 999 miles                   14%
1,000 miles or more                 9%
Figure 9: Short Haul Flights by Type of Airline
Percent Change in Scheduled Flights Less Than 250 Miles by
Type of Airline May 2004 versus May 2000 (FAA Data)

                                   2004
 Type of Air Carrier          Percent Change
                                 by Type
Network                           -43%
Low-Cost                          -14%
All Others                        -25%
Figure 10: Airline Domestic Market Share
Airline Market Share by Available Seats (FAA Data)
  Carrier Type         May          May        May        May    May
                       2000         2001       2002       2003   2004
Network                62%          61%        57%        54%    52%
Low-Cost               18%          19%        22%        23%    24%
All Others             20%          20%        21%        23%    24%
Note: All percentages are rounded.




Published Metrics Report (508 Compl) 8-10-04
08/11/2004
Figure 11: Market Share of Low Cost Carrier Service
Airline Share of Service by Available Seats, May 2004 (FAA Data)

                           Market Share
   Low-Cost Airline
                            Percentage
Southwest                      59%
AirTran                         8%
America West                   12%
Spirit                          3%
Frontier                        4%
JetBlue                         6%
American Trans Air              7%
Other                           1%
Note: All Percentages are rounded.

Figure 12: Share of Low-Cost Carrier Service Growth
Airline Share of Growth by Available Seats May 2004 versus May 1998
(FAA Data)
                         Service Growth
  Low- Cost Airline
                           Percentages
Southwest                     38%
AirTran                       19%
America West                   2%
Spirit                         5%
Frontier                       7%
American Trans Air            11%
JetBlue                       16%
Other                          1%
Note: All percentages are rounded.

Figure 13: Type of Aircraft
Percent Change in Number of Domestic Scheduled Flights by Type of Aircraft
May 2004 versus May 2000 (FAA Data)
    Type of       Percent Change in
    Aircraft           Flights
Turboprop               -49%
Large Jets              -19%
Piston                  -14%
Regional Jets           180%

Published Metrics Report (508 Compl) 8-10-04
08/11/2004
Figure 14: Regional Jets at Large Airports
Regional Jets Share of Scheduled Flights at 31 Largest Airports May 2004 versus
May 2000 (FAA Data)

 Largest Airports       May 2000                 May 2004
                        Percentage               Percentage
                      Share of Flights         Share of Flights
Cincinnati                 56%                      72%
Dulles                     19%                      44%
Salt Lake City             12%                      34%
Chicago O’Hare             20%                      41%
Houston                    16%                      39%
Newark                     11%                      38%
Reagan National             7%                      29%
Dallas-Ft. Worth            8%                      35%
St. Louis                   7%                      36%
LaGuardia                  22%                      30%
Pittsburgh                  3%                      24%
Detroit                     2%                      25%
Boston                      9%                      29%
Atlanta                     9%                      28%
Charlotte                   5%                      20%
Philadelphia                6%                      19%
Minneapolis                 2%                      21%
Denver                      2%                       8%
Kennedy                     5%                      16%
Orlando                     5%                      19%
San Francisco               0%                       3%
Phoenix                     5%                      14%
Los Angeles                 0%                       3%
San Diego                   0%                       5%
Miami                       4%                       6%
Fort Lauderdale             2%                       6%
Baltimore                   1%                       6%
Tampa                       0%                       6%
Las Vegas                   4%                       6%
Seattle                     0%                       5%
Honolulu                    0%                       3%



Published Metrics Report (508 Compl) 8-10-04
08/11/2004
Figure 15: Market Share by Aircraft Type
Percent Share of Scheduled Flights by Type of Aircraft (FAA Data)

                     May             May          May
 Aircraft Type
                     2000            2002         2004
Large Jets           57%             54%          50%
Regional Jets        9%              18%          29%
Turboprop            28%             21%          16%
Piston                6%              6%           5%

Note: All percentages are rounded.

Figure 16: Number of Flights With Delayed Arrivals (FAA Data)
Nine Major Airlines 32 Major Airports

                   2000      2003             2004
                 Arrival    Arrival          Arrival
  Month          Delays     Delays           Delays
January           71,485    37,552           59,405
February          69,499    45,191           52,286
March             71,757    41,095           49,416
April             74,655    29,885           44,411
May               77,400    37,305           58,047
June             100,115    44,507          Not Given
July              93,399    52,063          Not Given
August            96,550    54,001          Not Given
September         66,251    33,266          Not Given
October           75,543    34,609          Not Given
November          81,731    48,183          Not Given
December         105,180    58,518          Not Given

Note: May 2004 versus May 2000 Down 25 Percent
Note: May 2004 versus May 2003 Up 56 Percent




Published Metrics Report (508 Compl) 8-10-04
08/11/2004
Figure 17: Cancellations
(FAA Data) Nine major airlines 32 major airports)

              2000             2003               2004
  Month   Cancellations     Cancellations      Cancellations
January      18,512            2,813              6,766
February     11,477            8,873              3,636
March         7,585            3,743              2,693
April         8,853            2,096              1,535
May          12,835            1,268              3,512
June         14,407            1,432            Not Given
July         11,985            2,919            Not Given
August       11,538            4,006            Not Given
September     8,057            3,450            Not Given
October       7,977            1,905            Not Given
November      8,150            2,629            Not Given
December     21,333            4,637            Not Given

Note: May 2004 versus May 2000 Down 73 Percent
Note: September 2001 Cancellations Totaled 64,947

Figure 18: Percent of Flights Arriving Late
(FAA Data Nine major airlines 32 major airports)

  Month        2000        2003        2004
January        23%         14%         23%
February       23%         19%         21%
March          22%         15%         18%
April          23%         12%         17%
May            24%         14%         22%
June           32%         17%       Not Given
July           28%         19%       Not Given
August         29%         20%       Not Given
September      21%         13%       Not Given
October        23%         13%       Not Given
November       26%         19%       Not Given
December       33%         22%       Not Given

Note: May 2004 22 Percent of Flights Arrived Late
Note: December 2000 33 Percent of Flights Arrived Late

Published Metrics Report (508 Compl) 8-10-04
08/11/2004
Figure 19: Length of Arrival Delays
(FAA Data Nine major airlines 32 major airports)
              2000              2003           2004
  Month   (In Minutes)      (In Minutes)   (In Minutes)
January        49                45             50
February       51                48             47
March          50                46             48
April          52                46             45
May            58                47             58
June           59                46         Not Given
July           58                56         Not Given
August         55                56         Not Given
September      50                48         Not Given
October        49                43         Not Given
November       48                47         Not Given
December       54                48         Not Given
Note: May 2004 Arrivals Delayed 58 Minutes
Note: June 2000 Arrivals Delayed 59 Minutes

Figure 20: Changes in Arrival Delays by Airport
Percent Change in Arrival Delays
Year to Date May 2004 versus 2000 (FAA Data)


        Airport            Percent Change
O’Hare                           40%
Salt Lake City                   31%
Fort Lauderdale                  23%
Los Angeles                     -43%
Boston                          -41%
Saint Louis                     -52%




Published Metrics Report (508 Compl) 8-10-04
08/11/2004
Figure 21: Revenues versus Expenses
Major Passenger Carriers Operating Revenues
versus Operating Expenses (DOT Data)
                          Operating Revenues   Operating Expenses
        Quarter
                              In Billions          In Billions
First Quarter 2000               $22.6                $21.8
Second Quarter 2000              $25.4                $22.6
Third Quarter 2000               $25.9                $24.0
Fourth Quarter 2000              $24.2                $24.1
First Quarter 2001               $23.3                $24.1
Second Quarter 2001              $24.3                $25.0
Third Quarter 2001               $21.2                $24.4
Fourth Quarter 2001              $16.6                $20.9
First Quarter 2002               $18.2                $20.9
Second Quarter 2002              $20.4                $21.9
Third Quarter 2002               $20.2                $22.6
Fourth Quarter 2002              $18.9                $21.8
First Quarter 2003               $18.9                $22.1
Second Quarter 2003              $19.9                $20.7
Third Quarter 2003               $21.5                $21.0
Fourth Quarter 2003              $20.7                $21.4
First Quarter 2004               $21.4                $22.4
Note: First Quarter 2004 Operating Revenues Were $21.4 Billion
Note: First Quarter 2004 Operating Expenses Were $22.4 Billion

Figure 22: Selected Network and Low Cost Airlines
Operating Profit or Loss
System Operations for Quarter Ending March 31 2004 (DOT Data)

                          Profit or Loss
         Airline
                          (In Millions)
Southwest                      $46
JetBlue                        $33
America West                    $19
AirTran                         $10
Spirit                          -$3
Frontier                        -$7
American                       -$25
American Trans Air             -$28
Alaska                         -$47

Published Metrics Report (508 Compl) 8-10-04
08/11/2004
Continental                    -$79
Northwest                      $102
US Airways                    -$146
United                        -$304
Delta                         -$426

Figure 23: Accumulated Net Losses and Gains
First Quarter 2001 Cumulatively through First Quarter 2004
(DOT Data)

Quarter Year  Network        Low-Cost
              Carriers       Carriers
              Cumulative     Cumulative
              Sum Dollars    Sum Dollars
              in Millions    in Millions
First Quarter -$1,019        $99
2001
Second        -$1,811        $239
Quarter 2001
Third Quarter -$4,223        $344
2001
Fourth        -$7,422        $157
Quarter 2001
First Quarter -$10,408       -$177
2002
Second        -$11,927       -$179
Quarter 2002
Third Quarter -$14,473       -$228
2002
Fourth        -$18,485       -$295
Quarter 2002
First Quarter -$20,373       -$337
2003
Second        -$20,675       $153
Quarter 2003
Third Quarter -$21,177       $345
2003
Fourth        -$21,758       $418
Quarter 2003
First Quarter -$23,427       $398
2004

Note: First Quarter 2004 - Since the first quarter of 2001 Network Carriers Have
Accumulated Net Losses of 23 billion Dollars

Published Metrics Report (508 Compl) 8-10-04
08/11/2004
Note: First Quarter 2004 - Since the first quarter of 2001 Low-Cost Carriers Have
Accumulated 398 million Dollars in Net Profits

Figure 24: Cost Per Available Seat-Mile (CASM)
(DOT) Quarterly Domestic Data
Quarter Year  Network        Low-Cost
              Carriers       Carriers
First Quarter 10.8 cents     7.8 cents
2000
Second        10.8 cents     7.8 cents
Quarter 2000
Third Quarter 11 cents       8.0 cents
2000
Fourth        11.7 cents     8.3 cents
Quarter 2000
First Quarter 11.9 cents     8.0 cents
2001
Second        11.8 cents     8.1 cents
Quarter 2001
Third Quarter 12.3 cents     7.8 cents
2001
Fourth        12.3 cents     8.3 cents
Quarter 2001
First Quarter 11.9 cents     7.6 cents
2002
Second        11.5 cents     7.7 cents
Quarter 2002
Third Quarter 11.3 cents     7.4 cents
2002
Fourth        11.8 cents     7.5 cents
Quarter 2002
First Quarter 12.8 cents     7.6 cents
2003
Second        12.2 cents     7.5 cents
Quarter 2003
Third Quarter 11.7 cents     7.3 cents
2003
Fourth        12.3 cents     7.5 cents
Quarter 2003
First Quarter 12.6 cents     7.6 cents
2004

Note: First Quarter 2000 Network Carrier Cost Per Available Seat-Mile 10.8 cents
Note: Fourth Quarter 2004 Network Carrier Cost Per Available Seat-Mile 12.6
cents
Published Metrics Report (508 Compl) 8-10-04
08/11/2004
Note: First Quarter 2000 Low-Cost Carrier Cost Per Available Seat-Mile 7.8 cents
Note: Fourth Quarter 2004 Low-Cost Carrier Cost Per Available Seat-Mile 7.6
cents

Figure 25: Domestic Air Fares for Eight Major Airlines
Average Fare for 1,000 Mile Trip Excluding Taxes (ATA Data)
               2000         2001         2002           2003          2004
              Average      Average      Average        Average       Average
  Month      Fare Cost    Fare Cost    Fare Cost      Fare Cost     Fare Cost
January        $143         $148         $124           $119          $121
February       $151         $151         $130           $123          $124
March          $149         $145         $126           $121          $123
April          $147         $143         $126           $120          $120
May            $147         $136         $123           $118          $116
June           $145         $133         $120           $118        Not Given
July           $134         $122         $111           $113        Not Given
August         $139         $121         $110           $115        Not Given
September      $147         $120         $121           $123        Not Given
October        $151         $123         $124           $124        Not Given
November       $149         $125         $120           $122        Not Given
December       $146         $119         $117           $120        Not Given
Note: May 2004 Air Fare $116
Note: May 2000 Air Fare $147
Figure 26: Domestic Yield for Eight Major Airlines
Percent Change in Airline Yield from 2000 (ATA Data)
                2001                 2002                2003              2004
  Month   Percent Change       Percent Change      Percent Change    Percent Change
              in Yield             in Yield            in Yield          in Yield
January         4%                  -13%                -16%              -15%
February         0%                 -14%                -18%              -18%
March           -3%                 -16%                -19%              -17%
April           -3%                 -14%                -19%              -18%
May             -7%                 -16%                -20%           Not Given
June            -9%                 -18%                -19%           Not Given
July           -10%                 -18%                -16%           Not Given
August         -13%                 -21%                -17%           Not Given
September      -18%                 -17%                -16%           Not Given
October        -19%                 -18%                -18%           Not Given

Published Metrics Report (508 Compl) 8-10-04
08/11/2004
November          -16%              -20%               -18%           Not Given
December          -15%              -16%               -14%           Not Given
Note: April 2001 Yield Down 3 Percent
Note: April 2004 Yield Down 18 Percent

Figure 27: Business and Leisure Travel at the Five Busiest U.S. Airports
Passengers Using Business Fares as a Percent of All Passengers (BTS Data)

        Quarter           Percent of Business Fares
First Quarter 2000                  21%
Second Quarter 2000                 19%
Third Quarter 2000                  18%
Fourth Quarter 2000                 16%
First Quarter 2001                  14%
Second Quarter 2001                 18%
Third Quarter 2001                  12%
Fourth Quarter 2001                 12%
First Quarter 2002                  13%
Second Quarter 2002                 13%
Third Quarter 2002                  12%
Fourth Quarter 2002                 12%
First Quarter 2003                  13%
Second Quarter 2003                 14%
Third Quarter 2003                  14%
Fourth Quarter 2003                 12%

Figure 28: Passenger Load Factors
Actual versus Breakeven Percentages (DOT Data)

                           Actual         Breakeven
       Quarter           Load Factor     Load Factor
First Quarter 2000          69%             68%
Second Quarter 2000         76%             67%
Third Quarter 2000          76%             71%
Fourth Quarter 2000         70%             72%
First Quarter 2001          68%             74%
Second Quarter 2001         74%             76%
Third Quarter 2001          72%             88%
Fourth Quarter 2001         66%             90%

Published Metrics Report (508 Compl) 8-10-04
08/11/2004
First Quarter 2002           70%               85%
Second Quarter 2002          74%               83%
Third Quarter 2002           74%               87%
Fourth Quarter 2002          70%               85%
First Quarter 2003           69%               84%
Second Quarter 2003          75%               80%
Third Quarter 2003           78%               75%
Fourth Quarter 2003          73%               77%
First Quarter 2004           72%               76%

Note: First Quarter 2004 Actual Load Factor 72 Percent
Note: First Quarter 2004 Breakeven Load Factor 76 Percent

Figure 29: Individual Airline Load Factors
Actual versus Breakeven Percentages for Quarter Ending March 31 2004
(DOT Data)

                           Actual        Breakeven
       Airline           Load Factor    Load Factor
Southwest                   71%            61%
Delta                       78%            69%
America West                80%            75%
American                    76%            79%
Continental                 81%            76%
Northwest                   81%            78%
United                      80%            80%
US Airways                  77%            83%


Figure 30: Jet Fuel Cost Per Gallon (ATA Data Domestic Fuel Costs)
                2000            2001              2002           2003           2004
  Month
             Average Cost    Average Cost      Average Cost   Average Cost   Average Cost
January         $0.70           $0.86             $0.60          $0.84          $0.95
February        $0.73           $0.85             $0.62          $0.88          $0.97
March           $0.75           $0.80             $0.62          $1.05          $0.97
April           $0.74           $0.77             $0.69          $0.83          $1.00
May             $0.72           $0.78             $0.70          $0.76          $1.08
June            $0.70           $0.81             $0.67          $0.75        Not Given
July            $0.77           $0.77             $0.71          $0.78        Not Given

Published Metrics Report (508 Compl) 8-10-04
08/11/2004
August         $0.78           $0.77          $0.72          $0.83    Not Given
September      $0.86           $0.79          $0.77          $0.80    Not Given
October        $0.89           $0.71           $0.81         $0.82    Not Given
November       $0.89           $0.66           $0.77         $0.84    Not Given
December       $0.91           $0.57          $0.76          $0.88    Not Given
Note: March 2004 Jet Fuel Cost Was 29 Percent Higher Than June 2003

Figure 31: Debt to Investment Ratio
Airline Debt to Investment Ratio for All Major Airlines (DOT Data)

                             Ratio
        Quarter
                          (Percentage)
First Quarter 2000            50%
Second Quarter 2000           48%
Third Quarter 2000            48%
Fourth Quarter 2000           53%
First Quarter 2001            54%
Second Quarter 2001           54%
Third Quarter 2001            60%
Fourth Quarter 2001           66%
First Quarter 2002            68%
Second Quarter 2002           70%
Third Quarter 2002            73%
Fourth Quarter 2002           87%
First Quarter 2003            88%
Second Quarter 2003           90%
Third Quarter 2003            91%
Fourth Quarter 2003           91%
First Quarter 2004            93%

Figure 32: Debt to Investment Ratio by Airline
Airline Debt to Investment Ratio for Quarter Ending March 31 2004
(DOT Data)

                     Ratio
    Airlines
                  (Percentage)
Southwest             24%

Published Metrics Report (508 Compl) 8-10-04
08/11/2004
Alaska                60%
America West          66%
Northwest             71%
Continental           90%
American              96%
US Airways           102%
Delta                108%
United               198%

Figure 33: Airport and Airway Trust Fund
Estimated Trust Fund Receipts of February 2004
versus Pre-September 11, 2001 (FAA Data)

                 August 2004       Pre-September 11
 Fiscal Year
                 (In Billions)        (In Billions)
    2003             $9.3                 $12.9
    2004             $10.4                $13.7
    2005             $10.7                $14.5
    2006             $11.4                $15.4
    2007             $12.1                $16.3
    2008             $12.7                $17.4




Published Metrics Report (508 Compl) 8-10-04
08/11/2004
Figure 34: Non-Hub versus Larger Airports
Percent Change in Available Seats from 1998 (FAA Data)


                   Non-Hub Larger
     Month
                   Airports Airports

January 1999          -2%        5%
February 1999          0%        6%
March 1999             0%        7%
April 1999             0%        7%
May 1999               0%        9%
June 1999             -1%        8%
July 1999             -2%        7%
August 1999           0%        8%
September 1999         0%        7%
October 1999           0%        8%
November 1999          3%        8%
December 1999          2%        7%
January 2000          -2%       10%
February 2000          4%       15%
March 2000             0%       12%
April 2000            -2%       12%
May 2000               1%       14%
June 2000             -2%       11%
July 2000             -3%        9%
August 2000           -3%       11%
September 2000        -3%        9%
October 2000          -1%       12%
November 2000          0%       11%
December 2000         -4%       10%
January 2001          -4%       14%
February 2001         -5%       13%
March 2001            -6%       13%
April 2001            -7%       14%
May 2001              -5%       15%
June 2001             -8%       12%
July 2001             -8%       12%
August 2001           -8%       13%
September 2001       -10%       10%
October 2001         -10%        8%
November 2001        -18%       -5%

Published Metrics Report (508 Compl) 8-10-04
08/11/2004
December 2001        -19%       -6%
January 2002         -17%        0%
February 2002        -17%        0%
March 2002           -17%        1%
April 2002           -15%        3%
May 2002             -14%        4%
June 2002            -16%        3%
July 2002            -15%        4%
August 2002          -13%       3%
September 2002       -18%       -1%
October 2002         -18%        0%
November 2002        -18%       -2%
December 2002        -19%       -4%
January 2003         -21%       -1%
February 2003        -19%       -1%
March 2003           -19%       -1%
April 2003           -20%       -1%
May 2003             -20%       -4%
June 2003            -19%       -3%
July 2003            -18%       -2%
August 2003          -17%       -3%
September 2003       -19%       -5%
October 2003         -18%       -3%
November 2003        -19%       -3%
December 2003        -17%       -3%
January 2004         -20%        0%
February 2004        -17%        5%
March 2004           -20%        2%
April 2004           -22%        2%
May 2004             -18%        3%

Note: May 2004 Larger Airports Up 3 Percent
Note: May 2004 Non-Hub Airports Down 18 Percent




Published Metrics Report (508 Compl) 8-10-04
08/11/2004
Figure 35: Regional Differences at Non-Hubs
Percent Change in Available Seats at Non-Hub Airports
May 2004 versus May 2000 (FAA Data)

                                                         Percent Change
                         Region                           in Available
                                                              Seats
Northeast (includes Connecticut, Maine, Massachusetts,
New Hampshire, New Jersey, New York, Pennsylvania,           -37%
Rhode Island, Vermont)
Midwest (includes Illinois, Indiana, Iowa, Kansas,
Michigan, Minnesota, Missouri, Nebraska, North Dakota,       -25%
Ohio, South Dakota, Wisconsin)
South (includes Alabama, Arkansas, Delaware, Florida,
Georgia, Kentucky, Louisiana, Maryland, Mississippi,
                                                             -14%
North Carolina, Oklahoma, South Carolina, Tennessee,
Texas, Virginia, West Virginia)
West (includes Alaska, Arizona, California, Colorado,
Hawaii, Idaho, Montana, Nevada, New Mexico, Oregon,          -14%
Utah, Washington, Wyoming)
National Average                                             -20%

Figure 36: Access to Large Airports
Percent Change in Number of Scheduled Flights May 2004 versus May 2000 (FAA
Data)

                                        Percent Change
            Hub Access                     In Flights
Large to Large                                -7%
Medium to Large                               1%
Small to Large                                0%
Non-Hub to Large                             -21%




Published Metrics Report (508 Compl) 8-10-04
08/11/2004
Figure 37: Type of Aircraft at Non-Hub Airports
Percent Change in Scheduled Flights by Type of Aircraft
May 2004 versus May 2000 (FAA Data)


 Aircraft Type             Percent Change
Large Jets                     -38%
Turboprop                      -37%
Piston                         -18%
Regional Jets                  146%

Figure 38: Airline Market Share at Non-Hubs
Airline Market Share by Available Seats at Non-Hub Airports
(FAA Data)

                           May        May           May        May          May
  Airline Market
                           2000       2001          2002       2003         2004
Network                    21%        20%           18%        16%          15%
Low-Cost                    2%         3%            3%         3%           3%
All Others                 77%        77%           79%        80%          82%

Note: All Percentages are rounded.

Figure 39: Essential Air Service
Congressional Funding and Subsidized Communities (DOT Data)

                                                               Number of
                                        Appropriations
             Fiscal Year                                      Communities
                                         In Millions
                                                               Subsidized
1999                                          $50                 100
2000                                          $50                 106
2001                                          $50                 115
2002                                         $113                 123
2003                                         $102                 125
2004                                         $102                 138
President’s proposed 2005 budget             $50                  $80




Published Metrics Report (508 Compl) 8-10-04
08/11/2004
